<html>
<title> - COMBATING VETERAN HOMELESSNESS IN THE TAMPA BAY AREA</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]



 
          COMBATING VETERAN HOMELESSNESS IN THE TAMPA BAY AREA

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                       MONDAY, SEPTEMBER 16, 2019

                               __________

                           Serial No. 116-32

                               __________

       Printed for the use of the Committee on Veterans' Affairs
       
       
       
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        





        Available via the World Wide Web: http://www.govinfo.gov
        
        
        
        
                            ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
40-890                WASHINGTON : 2021         
        
        
                     COMMITTEE ON VETERANS' AFFAIRS

                   MARK TAKANO, California, Chairman

JULIA BROWNLEY, California           DAVID P. ROE, Tenessee, Ranking 
KATHLEEN M. RICE, New York               Member
CONOR LAMB, Pennsylvania, Vice-      GUS M. BILIRAKIS, Florida
    Chairman                         AUMUA AMATA COLEMAN RADEWAGEN, 
MIKE LEVIN, California                   American Samoa
MAX ROSE, New York                   MIKE BOST, Illinois
CHRIS PAPPAS, New Hampshire          NEAL P. DUNN, Florida
ELAINE G. LURIA, Virginia            JACK BERGMAN, Michigan
SUSIE LEE, Nevada                    JIM BANKS, Indiana
JOE CUNNINGHAM, South Carolina       ANDY BARR, Kentucky
GILBERT RAY CISNEROS, JR.,           DANIEL MEUSER, Pennsylvania
    California                       STEVE WATKINS, Kansas
COLLIN C. PETERSON, Minnesota        CHIP ROY, Texas
GREGORIO KILILI CAMACHO SABLAN,      W. GREGORY STEUBE, Florida
    Northern Mariana Islands
COLIN Z. ALLRED, Texas
LAUREN UNDERWOOD, Illinois
ANTHONY BRINDISI, New York
                 Ray Kelley, Democratic Staff Director
                 Jon Towers, Republican Staff Director

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                    MIKE LEVIN, California, Chairman

KATHLEEN M. RICE, New York           GUS M. BILIRAKIS, Florida, Ranking 
ANTHONY BRINDISI, New York               Member
CHRIS PAPPAS, New Hampshire          JACK BERGMAN, Michigan
ELAINE G. LURIA, Virginia            JIM BANKS, Indiana
SUSIE LEE, Nevada                    ANDY BARR, Kentucky
JOE CUNNINGHAM, South Carolina       DANIEL MEUSER, Pennsylvania

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.

                            C O N T E N T S

                              ----------                              

                       Monday, September 16, 2019

                                                                   Page

Combating Veteran Homelessness In The Tampa Bay Area.............     1

                           OPENING STATEMENTS

Honorable Mike Levin, Chairman...................................     1
Honorable Gus M. Bilirakis, Ranking Member.......................     3
Honorable Ross Spano, Member, U.S. House of Representatives, 
  Florida 15th District..........................................     6

                               WITNESSES

Mr. Joe D. Battle, Director, VA James A Haley Veterans' Hospital.     7
    Prepared Statement...........................................    37

Mr. Danny Burgess, Executive Director, Florida Department of 
  Veterans Affairs...............................................     9
    Prepared Statement...........................................    42

Mr. David Lambert, Chairman, Pasco County Housing Authority......    11
    Prepared Statement...........................................    48

Mr. Michael Raposa, Chief Executive Officer, St. Vincent DePaul 
  CARES..........................................................    11
    Prepared Statement...........................................    49

Mr. Brian Anderson, Founder and CEO, Veterans Alternative........    13
    Prepared Statement...........................................    50

Ms. Mary White, Veteran..........................................    15
    Prepared Statement...........................................    51



          COMBATING VETERAN HOMELESSNESS IN THE TAMPA BAY AREA

                              ----------                              


                       Monday September 16, 2019

            Committee on Veterans' Affairs,
                    U. S. House of Representatives,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to notice, at 10:06 a.m., at 
the West Pasco County Government Center, 8731 Citizens Drive, 
New Port Richey, FL, Hon. Mike Levin [Chairman of the 
Subcommittee] presiding.
    Present: Representatives Levin and Bilirakis.
    Also present: Representative Spano.

           OPENING STATEMENT OF MIKE LEVIN, CHAIRMAN

    Mr. Levin. Good morning. I call this hearing to order.
    I want to thank everybody for joining us today for the 
House Veterans' Affairs Committee Economic Opportunity 
Subcommittee. I am Mike Levin from Southern California, 49th 
District, honored to be with you, honored to chair the Economic 
Opportunity Subcommittee.
    I am very excited to be here in New Port Richey with my 
good friend, the Ranking Member, Gus Bilirakis, representing 
the 12th District here in Florida. I am also happy to have our 
friend Ross Spano from the 15th District here in Florida.
    It is really a pleasure to get to work with my friend, the 
Ranking Member, on veterans' issues. It is, I think, the one 
area in Congress where we are working together across party 
lines. And for everybody, I hope, if nothing else, you walk 
away today knowing that we are trying to get things done for 
our veterans, trying to give back to those who are serving and 
those who have given so much for our freedom and our security.
    Our Subcommittee addresses many of the key challenges 
facing veterans such as housing and homelessness, transition 
assistance, education, and job training programs. Today our 
hearing is titled ``Combating Veteran Homelessness in the Tampa 
Bay Area,'' and it is going to examine how Federal, state, 
local, and nongovernmental resources are working to reduce 
veteran homelessness. I can tell you, we just had a similar 
hearing in my neck of the woods, in San Diego, California, and 
I can already tell from my discussions this morning there are a 
lot of issues that are very, very similar that we will be 
discussing today.
    I thank the Ranking Member for joining me in California a 
couple of weeks ago to see the issues that we face there, and I 
look forward to learning more about the issues here. I can 
already tell things like trying to find enough affordable and 
available housing for our veteran community is really critical. 
The cost of housing might be a little different in California, 
the tax system might be a little bit different in California, 
but the issues are the same. I notice your gas prices are 
pretty good.
    [Laughter.]
    Mr. Levin. I hope everybody knows that there is more going 
on in Congress than you see on the cable news, and the work we 
do on veterans' affairs doesn't always get covered but it is an 
area where we are already making progress. I think we have 
gotten something like 20 bills out of our Subcommittee, 
something like that, and a lot of them are going to be signed 
into law. A number of them have already been signed into law by 
the President, and we are very, very grateful, everybody on the 
Committee is very grateful for the opportunity to serve.
    One of the things that we learned in our hearing last month 
was that if we can prevent veterans from falling into 
homelessness in the first place, as opposed to having to deal 
with the issues surrounding homelessness, the cost is maybe 
one-tenth for prevention as it is for actually dealing with the 
acute problem. So that is something I want to keep in mind.
    We also learned about the difficulty in actually counting 
homeless veterans so we can focus our efforts and resources 
where they are needed. There is some dispute over how that 
count works. We heard ideas about how to better educate 
servicemembers about Federal resources that will help them 
avoid housing insecurity, specifically things like the HUD-VASH 
program. A lot of people use SSDF, as well. I am really 
excited. I think I can say this, right? That this week we are 
going to be voting to reauthorize $380 million for SSDF, so I 
am very excited about that.
    We need to do more. We need to expand HUD-VASH so that it 
provides assistance to more veterans. We need to improve data 
collection, and we need to better share the data between the 
Federal Government and local leaders, and we need to increase 
Federal assistance to homeless veterans with children in 
particular. We heard from a woman recently at one of our 
hearings in D.C. that some mothers, veteran moms, single moms, 
are worried that if they come forward and talk about the 
services that they need, that they may be at risk of losing 
their children. We have to make sure that we eliminate that 
fear however possible.
    We are only effective as members of Congress when we learn 
from the experts, and that is why I am really grateful that you 
are all here. I look forward to learning from you and hopefully 
to continue the collaboration in the months and years ahead as 
we try to craft public policy based on the actual needs on the 
ground of the veterans in your community, the veterans in my 
community and throughout the country.
    And we have a couple of other great members.
    I do need to say one technical thing. The lawyers, you 
know, they make me say technical things. So I ask for unanimous 
consent that any members of Congress present or that may appear 
later, because we have invited a couple of others, may be 
seated at the dais for the purpose of participating in this 
congressional hearing. So, Ross, there you go; good stuff.
    [Laughter.]
    Mr. Levin. Second thing. With that, I would like to 
introduce my dear friend, the Ranking Member of the House 
Veterans' Affairs Subcommittee on Economic Opportunity, 
Florida's very own Gus Bilirakis.

     OPENING STATEMENT OF GUS M. BILIRAKIS, RANKING MEMBER

    Mr. Bilirakis. Thank you.
    [Applause.]
    Mr. Bilirakis. Thank you, friends. Appreciate it.
    Mr. Chairman, welcome to California without the taxes.
    [Laughter.]
    Mr. Bilirakis. It is a great place, and Pasco County is a 
wonderful place to live, and I just want to thank all of you 
for being here. We have the experts here, but there are experts 
in the audience as well. It is just that we don't have enough 
chairs for everyone to testify, but we will be available for 
you after the hearing if you would like to come up to us.
    I do have some prepared remarks, so I probably should stick 
with them, and then we can hear from all these experts about 
how to solve this issue because you are doing such a great job 
here in Pasco County. But the entire congressional district, we 
can do better. So we want to know what works and what doesn't 
work, and we need to know how well these programs are doing so 
we can continue the funding. But if they are not doing well, 
let's put the funding elsewhere.
    So, thank you, Mr. Chairman. I want to thank you all for 
joining us here for this field hearing of the Subcommittee on 
Economic Opportunity of the House Veterans' Affairs Committee.
    Who says Republicans and Democrats don't get along? We work 
together in a bipartisan fashion for true American heroes, and 
I want to thank Chairman Levin. He has been outstanding. I am 
telling you; they have been more than fair to me being in the 
minority with regard to veterans' issues and getting veterans' 
issues done.
    So we are kind of a model for the rest of Congress, and 
hopefully they are listening, and they are hearing us today 
because these are non-partisan issues. They are American 
issues.
    My name is Gus Bilirakis. It is my pleasure not only to 
serve as a congressman from the 12th Congressional District of 
Florida--and, of course, we are here today in Pasco County--but 
also to serve as the Ranking Member, the lead Republican, on 
the Subcommittee.
    I want to thank the Pasco County Government, the government 
center, for providing the facilities to host this field 
hearing, especially Vito Tomasco. Where is Vito? He is probably 
working.
    Vito, thank you so very much for what you have done. 
Really, I know you have put a lot of hours into making this 
happen, so we appreciate it very much.
    And then also my colleague, as I said, Chairman Levin, for 
being here and holding this field hearing. I had to get 
permission from the Chairman to hold this hearing. I did go to 
California, and we learned quite a bit. I never think it is a 
difficult thing to come to Florida, Mr. Chairman, but I really 
appreciate you being here.
    And then Sheriff Nocco. I am not sure if Sheriff Nocco is 
here yet. Oh, there he is.
    Hi, Sheriff. Thank you so very much.
    [Applause.]
    Mr. Bilirakis. Thanks for keeping us safe, Sheriff. We 
appreciate it so much.
    Let's see, Dan Anderson from the Homeless Coalition.
    I want to thank all of these people.
    Steven Phears, who is representing Congressman Crist today. 
As a matter of fact, I did call Congressman Crist a couple of 
times. He probably has a conflict, but don't be surprised if he 
shows up in the middle of the hearing, which is fine.
    Katherine Starkey, Pasco County Commissioner. She is 
coming, on her way.
    And Jack Veriano.
    I don't want to leave anyone out here.
    And then, of course, Judge Shawn Crane. Shawn does a 
wonderful job for our veterans, heading up the veterans' court 
in this circuit. We appreciate you so very much.
    All of you, you are veterans' advocates, you are selfless 
as far as I am concerned. You know your priority is with our 
heroes, and that is where my priority is as well.
    It is great to work with a thoughtful legislator, again, 
like Chairman Levin, on our continued goal to provide economic 
opportunities for veterans. I thank him for traveling to our 
community and hearing firsthand from Floridians on the issues 
that our veterans face.
    Let's just pause for a second, please, or more than a 
second, to allow all the veterans to recognize themselves. If 
you are a veteran, please raise your hand, or if you would like 
to stand, if you are capable of standing, that is fine too. 
Please, we need to honor you.
    [Applause.]
    Mr. Bilirakis. Thank you very much. Thank you for your 
service, again, to our country. It is an honor to represent you 
in the United States Congress.
    Before we begin, I want to point out members of my staff 
standing in the back. We have a few.
    Rob Leach. Where is Rob? Raise your hand, Rob. Rob is our 
veterans outreach staffer. He does an outstanding job. 
Obviously, he served in the Army as well. He was in the first 
invasion of Iraq.
    Joe Peters is here as well. Raise your hand, Joe. Joe can 
help you with any case work you might have.
    Our Chief of Staff might be running late, Elizabeth Hetos, 
but she will be here.
    And everyone knows Summer Robertson, who is our District 
Director and our Deputy Chief of Staff. Raise your hand, 
Summer. Thank you so very much.
    [Applause.]
    Mr. Bilirakis. Again, if you have any issues concerning 
veterans, or anything to do with the Federal Government, please 
don't hesitate to approach my staff. We will be happy to help 
you out in any way we can. Please feel free to stop and ask any 
questions you have. They work hard every day, again, for our 
veterans in the 12th Congressional District to assist with VA 
and Department of Defense-related issues.
    Today we are here to examine and highlight programs and 
benefits that help combat veteran homelessness. There has been 
a significant amount of progress made nationwide in reducing 
homelessness among veterans, but we still have much more work 
to do.
    Several municipalities have even eliminated veteran 
homelessness altogether by obtaining functional zero, and we 
will define that during the hearing. While this is good news, 
as funding for homeless veteran programs in the Department of 
Veterans Affairs and the Department of Labor have reached 
record levels, we must ensure that we have a true picture of 
how this money is being spent.
    Last month we held a similar field hearing, as I said, on 
veteran homelessness in Chairman Levin's district near San 
Diego, California. One of the biggest issues facing homeless 
programs in California is the lack of affordable housing and 
the difficulties of building more of it. Sound familiar?
    I am interested in finding out from our witnesses today how 
high housing costs create major issues for homeless programs in 
the Tampa Bay area and in Florida as a whole. While I believe 
it is important to provide veterans with housing through the 
VA's HUD-VASH housing voucher program, it is even more critical 
for the long-term success of these veterans if they also 
receive comprehensive wraparound services that help them find 
meaningful employment. Do you agree? It is so important.
    Without helping veterans find meaningful employment, we are 
only providing them temporary housing and not setting them up 
for positive long-term success.
    I am grateful to our witnesses for giving us an opportunity 
to hear directly from those on the ground in this fight against 
veteran homelessness about what they believe works, doesn't 
work, and how we in Congress can help combat this problem.
    While we have had success in combating veteran homelessness 
in our community, I know we all share the common goal to ensure 
those who have worn the cloth of our country are never 
homeless.
    Once again, I thank the Chairman for holding this field 
hearing in the 12th Congressional District, and before I yield 
back, I wanted to thank Representative Spano, our neighbor here 
in Hillsborough County, for being here today and caring for our 
heroes.
    So with that, I will yield back, Mr. Chairman.
    Mr. Levin. Thank you, Mr. Ranking Member.
    Just to say something that hopefully you all realize, 
Ranking Member Bilirakis is really one of the leaders in the 
United States House of Representatives when it comes to 
advocating for our veterans. You have a true national leader on 
this issue, and I think everybody knows that, right? If you 
don't, you have a great Member of Congress. We love our friend, 
Gus Bilirakis.
    With that, I would like to introduce another friend from 
Florida's 15th District, Ross Spano, for his opening statement. 
Thanks for being here.

                OPENING STATEMENT OF ROSS SPANO

    Mr. Spano. Thank you, Mr. Chairman. Thank you for having 
me, Chair Levin and Ranking Member Bilirakis. It is an honor to 
be with you.
    When I talked to the Ranking Member on the floor last week, 
he made sure to remind me that he had invited me to be at this 
event this morning, and as you probably are aware--you guys 
certainly know this--we get so many invitations from all over 
the place, but I immediately contacted my staff and said we are 
going to move whatever we can move around so that we can at 
least be there for the beginning of the hearing and show our 
support for this effort, because it is an important one.
    I do have the honor of representing Florida's 15th 
Congressional District, and that is most of eastern 
Hillsborough County and parts of Polk County and Lake County 
over near Orlando. It is an honor to serve.
    Very quickly, I just wanted to give a shout out to my 
former colleague in the Florida House, Danny Burgess, who now 
serves as Director of Florida's Department of Veterans Affairs. 
It is good to see you, brother. I thank you for being here and 
offering your testimony this morning.
    I want to personally thank each and every one of the 
veterans who are here this morning. Thank you for what you do 
and have done. I am grateful, my family is grateful to you for 
your service and your sacrifice. Thank you.
    I am pleased to be co-sponsor of a number of veteran 
support bills, one of which kind of falls right within the 
wheelhouse of the hearing this morning, and that is H.R. 95. It 
is the Homeless Veterans' Families Act. You may or may not know 
about that bill, but it goes a long way toward ensuring that 
the children of veterans have access to shelters and housing, 
and I wanted to kind of give you an idea.
    So currently, if you are a non-veteran homeless in the 
United States, Federal funds will pay for each head in bed a 
per diem to the service agency housing a family. However, if 
you are a veteran homeless family, the VA's GPD program will 
only pay for the cost of occupancy for the veteran but not for 
the dependent family member. That doesn't seem to make a whole 
lot of sense to me.
    So what this has resulted in, unfortunately, is many GPD 
providers not accepting homeless veterans with dependent 
children, and that needs to change.
    You have all heard the quote that freedom isn't free. That 
is true in the sense that there is a great cost to defend 
freedom emotionally in the sacrifices of health and life, but 
also the understanding that we must devote our financial 
resources as a Nation to support the men and women when they 
come home to us. G.K. Chesterton once said that courage is 
almost a contradiction in terms. It means a strong desire to 
live taking the form of a readiness to die. So publicly, 
nationally, we thank, and we honor the courage of our veterans, 
and we demonstrate that gratitude by our actions when you 
return home.
    So I believe I speak for the entire Congress, and I know I 
speak for the Committee, when I say that we now stand ready to 
do whatever it takes, whatever it takes, to support you. So 
thank you again. It is an honor to be here.
    Thank you, Mr. Chairman.
    Mr. Levin. Thank you for being here, Representative Spano.
    [Applause.]
    Mr. Levin. Well, we have a great panel, and we are going to 
have, I think, plenty of time to dig into the issues with you, 
just as we did, Mr. Ranking Member, back in California. My hope 
is that we are informed, the work that we do in Washington is 
informed by what you tell us today. I like to tell our local 
constituents that my output as a legislator is only as good as 
the input. So we need all the input we can get, and we have a 
great panel. So I would like to introduce everybody.
    First is Mr. Joe Battle, Director of the James A. Haley 
Veterans Hospital. Thanks for being here, sir.
    Mr. Danny Burgess, Executive Director of the Florida 
Department of Veterans Affairs. Thank you so much for being 
here and your service in Florida.
    Mr. David Lambert, Chairman of the Pasco County Housing 
Authority. Thanks for coming.
    Mr. Michael Raposa, Chief Executive Officer of St. Vincent 
DePaul CARES. Thanks for being here.
    Mr. Brian Anderson, Founder and CEO of Veterans 
Alternative. Thank you so much.
    And Ms. Mary White, a formerly homeless veteran who served 
the United States Army. We are deeply grateful for your being 
here today to share your story with us.
    As you know, you are going to have 5 minutes for an opening 
statement. Then we will have time for questions. I think we 
will have plenty of time for questions. Hopefully we will have 
time for two rounds of questions. Your full statements, to the 
extent you submitted written statements, will be added to the 
record. Of course, we will welcome your comments and feedback, 
and our dialogue doesn't just end here today. We need your 
active participation in all the work that we are doing in 
service of our veterans in the months and years ahead.
    So with that, I would like to turn it to Mr. Battle. You 
are recognized for 5 minutes for your opening statement.

                   STATEMENT OF JOE M. BATTLE

    Mr. Battle. Thank you, sir. Good morning, Chairman Levin, 
Ranking Member Bilirakis, and Representative Spano. Thank you 
for the opportunity to speak before you today on the topic of 
veteran homelessness.
    Each area of the country brings unique challenges faced by 
veterans at risk of experiencing homelessness. For those of you 
who aren't familiar with the James A. Haley hospitals and 
clinics, we are located in Tampa, Florida, with community-based 
outpatient clinics in Hernando, Hillsborough, Pasco, and Polk 
Counties. Haley is one of the five poly-trauma centers within 
the VA system of care, and when combined with our 100-bed 
Michael Bilirakis Spinal Cord Injury Center, it is the largest 
Federal rehabilitation center in the country. In Fiscal Year 
2018, we treated over 97,000 unique veterans and active-duty 
patients, with almost 12,000 admissions and more than 1.4 
million outpatient visits, of which 129,000 of those visits 
were performed just down the road at the New Port Richey 
outpatient clinic.
    I firmly believe that to be successful, we need to be an 
active partner in the communities we serve, and nowhere is that 
more evident than in our mission to end veteran homelessness. 
Through VA and our partners' efforts, homelessness among 
veterans has reduced about 50 percent nationally from 2011 to 
2019. Locally in our catchment area, it has reduced by more 
than 70 percent during the same timeframe. Guided by the 
principle of housing first and a goal of finding permanent 
housing, HUD-VASH vouchers have been a key in providing homes 
for these veterans.
    We have accomplished these remarkable results to help meet 
the need and challenges faced by homeless veterans through our 
collaboration with our community partners, from local housing 
authorities to veteran service organizations to faith-based 
organizations, just to name a few. Haley has partnerships with 
law enforcement and legal communities throughout our catchment 
area. Staff provide outreach services in local jails to 
justice-involved veterans. Individualized services are offered 
with an effort to assist in discharge planning to prevent 
homelessness upon release. The VGAO specialist staff work in 
treatment courts with an effort to support justice-involved 
veterans engaged in treatment services.
    The priority of our Health Care for Homeless program is to 
break the cycle of homelessness using a variety of community 
resources which include permanent supportive housing programs, 
transitional housing programs, prevention and diversion 
programs, rapid re-housing programs, substance abuse treatment 
programs, medical and mental health services, employment 
services, and case management.
    But most often it comes down to finding housing. At Haley, 
we have 1,060 HUD-VASH vouchers available for use, and 
currently 919 veterans are permanently housed using these 
vouchers. Our staff connect homeless veterans to a variety of 
services, including the HUD-VASH program, contract residential 
services, grant per-diem programs, and have job programs such 
as supportive services for veterans' families, rapid re-
housing, and homeless prevention.
    The team manages a wide array of homeless veteran outreach 
programs through street- and clinic-based services. I freely 
admit we haven't eradicated homelessness as it continues to be 
an issue in our catchment area, but we are a continuous 
improvement organization, always striving to be better at what 
we do and find innovative solutions to universal challenges. 
The greatest challenge we face with housing veterans is the 
rapid rise in rents throughout our area of operation. We are 
working with Federal, state, and local partners to meet this 
challenge and find innovative solutions.
    The James A. Haley Veterans Hospital is committed to 
providing high-quality care to our veterans that they have 
earned and deserve. We will strive to continually improve 
access to services to meet the needs of all veterans. We are 
committed to working with our community partners to end 
homelessness amongst veterans. We appreciate the opportunity to 
appear before you today and the resources the Congress provides 
the VA for our veterans.
    Mr. Chairman, this concludes my testimony and I am prepared 
to respond to any questions that you have.

    [The prepared statement of Joe M. Battle appears in the 
Appendix]

    Mr. Levin. Thank you, Mr. Battle.
    Mr. Burgess, you are now recognized for 5 minutes for your 
opening statement.

                   STATEMENT OF DANNY BURGESS

    Mr. Burgess. Thank you, Mr. Chairman and Ranking Member 
Bilirakis, and Congressman Spano. It is truly an honor to be 
able to present my testimony before this Committee today. 
Welcome to Pasco County, proud to have you here.
    FDVA seeks to address ways to provide the assistance the 
veterans have earned and deserve by their service to the 
Nation. As the newly appointed Executive Director for the State 
of Florida for the Florida Department of Veterans Affairs, I 
felt the need to look and find ways to address gaps in veteran 
services and work together to solve some of the most crucial 
and time-sensitive issues that face veterans today.
    I am joined today by my Deputy Director, United States 
Marine Corps Major General Retired James Hartsell, who is just 
behind me to the back, and also a Pasco resident. We are so 
very proud to have him on our team and have him with me today. 
Together, our team and FDVA, we are scattered throughout the 
state, and we led an initiative kicked off by Governor Ron 
DeSantis called Forward March. FDVA hosted working groups in 
this Forward March initiative in key communities across seven 
regions of the State of Florida in a five-month period. Those 
regions included Tampa, Pensacola, Jacksonville, Lake Worth and 
West Palm Beach, Ocala, Miami, Cape Canaveral, and Sarasota. 
Leadership from state, Federal, city, and county 
municipalities, civic groups, church groups, veteran service 
organizations, and anybody operating within that region that 
has an ability to impact the veteran community were invited. I 
would say collectively we touched over 1,000 leaders in the 
veteran community throughout the State of Florida in this five-
month process, and this mission began on March 29th of 2019 and 
continues to this day.
    It is a combination of knowledge from leadership on the 
state and local level, as well as the private sector, and these 
groups and charities across the state, they address many 
important topics, one of which, of course, we are here to 
address today, which is the homelessness crisis amongst our 
veteran community, veteran homelessness, and work groups 
focused on the challenges, the impacts and gaps, best practices 
and initiatives, and resources necessary to bring about change 
to these existing conditions within these structures.
    The results of these discussions across the state is that 
there are a host of fragmented veteran services that augment 
the Federal VA benefit system. That patchwork tends to be 
locally focused, community oriented, and effective for its 
regional population but often working in silos that are 
separate and distinct and limited in their scope of focus. 
Because they are local and inward, these groups face issues of 
inadequate funding, lack of proper information dissemination 
and sharing, lodging and subsistence inadequate resources for 
outreach. So they are insular and must rely on benefits 
coordination and mutual assistance and resource sharing, which 
is one of the big things we gathered from Forward March, that 
need for collaboration to help fill the gaps, open up lines of 
communication and barriers, and everybody is marching to that 
same beat of the drum and that same direction. That 
collectivity and community-based effort will help resolve those 
issues.
    So we realize that we at FDVA can really become a true 
conduit to try to help bridge those gaps and help connect all 
these different resources and all these great organizations 
that are doing so much good and help them work together to 
combine their efforts.
    As of August of this year, Florida has five counties and 
three communities that declared functional zero for 
homelessness. Those are Flagler County, Miami-Dade County, Ft. 
Myers and Lee Counties, Punta Gorda, Charlotte County, Volusia, 
and Daytona Beach. Homelessness among veterans in Florida, as 
Mr. Battle mentioned before, has effectively been cut in half 
from 2011, and a significant cause for this is because of the 
national initiatives such as the HUD-VASH program. So we can't 
thank you enough for your support and encouragement of those.
    It is a very telling and significant decrease, but there is 
still so much more we could do. The support clearly has not yet 
ended or eradicated to functional zero veteran homelessness. We 
have about an estimated 2,543 homeless veterans in Florida that 
we know about. As we all know, some veterans do not want to be 
identified. They may not want to come out of the woods, which 
means we have to reach into those wraparound services and 
provide that support for mental health and other community 
care.
    Employment is a critical issue. We have to work on 
transition in employment to help them get better connected to 
the skill trades that they had put into full effect in a 
masterful way in the military. That is a keyway that we can do 
this.
    So the bottom line is we stand ready as an FDVA to assist 
our local partners, our Federal partners, our members of 
Congress on the legislative level, and we want to be a 
resource, we want to be a conduit, we want to help connect dots 
and raise awareness. What we found more than anything is that 
the key is raising awareness, raising awareness to what is 
available and what is out there. If veterans don't know, then 
we won't be able to get them connected to those services. So we 
need to be more proactive as an FDVA, get out of our foxhole, 
and make sure that we are reaching those veterans who served 
us.
    Thank you so much, Mr. Chairman, for coming here. Ranking 
Member, so proud to call you my congressman and my friend. It 
is an honor to be here. Thank you, and we stand ready to answer 
any questions that you may have. Appreciate your time.

    [The prepared statement of Danny Burgess appears in the 
Appendix]

    Mr. Levin. Thank you, Mr. Burgess, appreciate that very 
much.
    I would now like to recognize Mr. Lambert for this opening 
statement.

                   STATEMENT OF DAVID LAMBERT

    Mr. Lambert. Thank you, Mr. Chairman, Congressman 
Bilirakis, and Congressman Spano. I represent one agency who 
works to combat veteran homelessness, along with other issues 
related to homelessness in our community. Today I will 
specifically speak to a local level, and I look forward to 
answering any questions that you may have, especially on the 
question of jobs as we move forward.
    The Pasco County Housing Authority is the recipient of 
Federal funds through the Department of Housing and Urban 
Development. We receive VASH vouchers that are specifically for 
veterans. Housing for veterans and others is extremely hard to 
come by. So in our local area, there are no homes to be had, to 
put a VASH voucher to.
    The PCHA, in order to address this issue, we recently 
purchased property to build a 78-unit veterans housing and 
mental health housing community. While one would think that 
progress has not been made and there is an extreme lack of 
affordable housing in our area, in the case of the PCHA we 
tried to get financing to build this new community. However, 
banks would not lend to us, even though we are one of the best 
agencies to help combat homelessness for families, even though 
the VA and HUD approved project basing VASH vouchers, which 
virtually guarantees the property would be successful, meaning 
it would cash flow through the process.
    We have met resistance at every level. This has been based 
on the low funding from HUD through the Federal budget and our 
balance sheet. Housing authorities are designed by nature to 
have a very slim margin. We have been able to cobble together 
approximately $2 million in funding, and we are seeking a 
legislative budget request through working with our 
representative, Mr. Burgess, to get funding to construct this 
project.
    We respectfully request the Federal Government create 
regulations to do what you already have done in the housing 
arena to allow banks to fund our projects even though we 
operate on a low margin level, and to provide banking through 
the Department of Housing and Urban Development, which is 
exactly what they are tasked to do and we have done in the past 
in order to get local housing stock for veterans and folks with 
mental illness.
    Those are my comments, Mr. Chairman.

    [The prepared statement of David Lambert appears in the 
Appendix]

    Mr. Levin. Thank you, Mr. Lambert. I know the Ranking 
Member and I were writing notes down, so I am sure we are going 
to have some follow-up regarding that project.
    Now I would like to recognize Mr. Raposa for his opening 
statement.

                  STATEMENT OF MICHAEL RAPOSA

    Mr. Raposa. I am really grateful for the opportunity to sit 
before you, and I am incredibly grateful to Congressman 
Bilirakis for his leadership in our area. Every community needs 
a herald, and every community needs an advocate, and there is 
no greater advocate than Gus Bilirakis for our community.
    St. Vincent DePaul CARES is carrying out a 400-year 
tradition that was set forth by our namesake in Paris, France, 
and our worldwide role continues to be obliterating poverty on 
the planet. Since 2012, St. Vincent DePaul CARES has been the 
leader in many of the areas in ending veteran homelessness in 
West Central County, including the counties of Pasco, Pinellas, 
Hillsborough and Polk.
    In 2018 we expanded our efforts to include the counties of 
Citrus, Hernando, Sumter and Lake, and we are about to announce 
that in 2019 we are going to be expanding our efforts to 
Manatee, Sarasota, Charlotte, Harding, Highlands, Henry Lee, 
and Collier Counties. At this point, I need a helicopter.
    When we embarked on the mission, the mere concept of ending 
homelessness for any subpopulation was a dream that many felt 
unrealistic. To that end, at one point I was summoned into a 
local county administrator's office who requested that I stop 
talking about it publicly because the commissioners of that 
community thought that I was crazy.
    I understood where he was coming from, because at that time 
the number of veteran homeless was at 2,850, both on the street 
and in shelters, and I am really pleased to say that the number 
in that same county today is at 149. We have made significant 
progress, much thanks to the congressional appropriations over 
the years. And for that, we are really grateful.
    The creation and the continuation of the Supportive 
Services for Veteran Families program has completely 
transformed homeless service delivery nationwide. The data 
continue to show that the majority of veterans on the street 
can be immediately moved into housing and, with wraparound 
services, thrive. The length of time between being on the 
street into housing has declined from nearly 180 days when we 
began to just under 60 days today, not quite at the 30 where we 
would like to be, but that is substantial progress.
    In addition, the positive impact that SSVF has had on the 
clients and the households served, the greatest impact has been 
on our local communities. The program has proved that a 
systematic approach to ending homelessness across our country 
will produce a dramatic decline in the number of homeless.
    In the Tampa Bay region alone, we have seen a dramatic 
decline, as already recorded. Whereas within our community 
there are some that are lagging behind, and there are some that 
are not seeing the dramatic decrease. The numbers are stagnant, 
or the numbers are on a slight increase. This has to do with 
that system.
    To that end, during the month of August, Pinellas County 
saw the number of homeless families with children seeking 
shelter and housing intervention at zero for four days. While 
this may seem meager, you have to bear in mind the fact that 
that number has been up over 200 at times, and we are making 
great progress.
    So the rapid access to affordable housing, supportive 
stabilization services, community organization and 
coordination, and strong advocacy for change have proven to be 
the perfect combination.
    The greatest obstacle that we have faced as a Nation is 
that availability of affordable housing across the country. We 
have to adapt our services to meet those needs, and I have some 
real specific suggestions that I have put together in 
conjunction with my friends at the VA.
    The first is the need to expand the affordable housing 
supply. VA's Enhanced Use Lease, EUL, program allows for the 
development of housing on underutilized or unused VA 
properties, but there are currently no capital funds associated 
with this project. Allowing the EUL to offer both capital 
resources as well as the ability to collaborate with the HUD-
VASH project-based one-stop procurement process, we would 
eliminate the need for developers to seek out multiple 
resources and operating assistance. This would help integrate 
project-based HUD-VASH in EUL development.
    And finally, we here in the State of Florida continue to 
see the state's affordable housing trust fund being swept by 
our state legislature. This is a huge problem for us, because 
the resources are there, they were designated for that, and our 
state legislature continues to move them in a different 
direction. 2019 was the first time in many years that we saw 
the Governor's Office and the Senate on the same page to 
release an historic portion of that money, but the House did 
not support it, and we desperately need your help with that. 
When we get to the point of questions, I can offer some other 
specific solutions to that, and I also hope that we will talk 
about reaching an effective end of homelessness. Functional 
zero was the definition that was set for one group, and the 
effective end of homelessness is much more comprehensive and a 
better alternative. Thank you.

    [The prepared statement of Michael Raposa appears in the 
Appendix]

    Mr. Levin. Thank you, Mr. Raposa, for your words.
    I would now like to recognize Mr. Anderson for 5 minutes 
for your opening statement.

                  STATEMENT OF BRIAN ANDERSON

    Mr. Anderson. Good Morning, Chairman Levin, Ranking Member 
Bilirakis. My name is Brian Anderson. I am a medically retired 
Green Beret, social worker, Founder and CEO of the Veterans 
Alternative, and a Master's of Social Work candidate at 
Columbia University with a focus on Social Enterprise 
Administration. I truly appreciate the time given to speak on a 
problem I am really familiar with.
    I moved to Pasco County in 2012. At that time, Pasco and 
Hillsborough Counties ranked in the top 10 for overall 
homeless, and Hillsborough and Pinellas Counties ranked in the 
top 10 for overall homeless. All three counties were rated as 
small cities, counties, or continuums of care. Real change in 
that area is not that significant, as the 2018 Point-In-Time 
Counts reveals Pasco and Pinellas counties leading in several 
homeless statistics, including veteran homelessness.
    As valiant an effort as James A. Haley, Bay Pines, the 
State of Florida, local municipalities, and nongovernment 
organizations have made in the last seven years, homelessness 
remains a major issue amongst our veteran population. Models 
such as housing first have emerged as the leading evidenced-
based approach to ending homelessness, yet we lack the number 
of beds needed, and unfortunately, we cannot build and fund 
fast enough to keep up with the demand. This brings into focus 
how we catalog homelessness, health care or societal, and the 
approach in which we attack the issue.
    By necessity, our country is shifting the focus of health 
care from acute to preventive. You, our elected officials, have 
played a major role in this shift, and it is evident in our 
Veteran Health Administration. For the most part, at least in 
the James A. Haley area of operation, a whole-health approach 
is practiced and is increasing overall health and well-being of 
the veterans served, but our approach to homelessness is still 
acute, and that needs to change.
    The health care shift articulates good health care as an 
exercise in interdependency, yet our homeless programs focus on 
reactive solutions and little on the preventive practices often 
implemented by community wellness programs serving the 
psychosocial needs in the population. Reactive solutions do 
little in addressing the root cause of the problem, which was a 
major topic in our Nation's discussion on health care 
practices.
    Homelessness is not the root cause. Rather, it is a 
byproduct of several contributing factors, including mental 
health, medical and economic hardship. These are being 
addressed in standard practices of care, especially at the 
state and Federal levels, but there is an element missing at 
the community level, and it is prudent we address this by 
allocating more resources to wellness programs addressing the 
psychosocial needs of our veteran population.
    These wellness programs are critical in reaching our most 
isolated individuals who are often reluctant to engage services 
through normal means of care, such as the Veterans Health 
Administration. Community-based wellness programs are a crucial 
part of the solution to prevent homelessness, suicide, and 
risky behaviors from occurring, yet are often pacified as 
``feel good'' services. It is time we start including 
community-based nonprofits as a necessary part of overall 
veteran care and prevention programs.
    Many of these community-based nonprofits are providing 
services alternative in nature, and include camaraderie as a 
key component of programing. Numerous studies indicate the loss 
of ``fictive kinship'' and the disconnect between veterans and 
civilians as a major problem we face. Social isolation is a 
significant concern among veterans from all generations, 
including our transitioning veteran population, and is often 
associated with homelessness, suicide and suicidal ideations, 
risky behaviors, and use of drugs and alcohol. Veteran 
nonprofit organizations providing alternative care often 
utilize a model that includes peers in treatment in an 
environment outside the standard medical model, and this 
phenomenon needs to be researched, resourced, and replicated.
    As the medical model would dictate, focus on treatments 
rather than programs have emerged as the legislative test to 
see what these nonprofits bring to our interdependent practice. 
What started with the VA Committee as the COVER Act has been 
replicated in the State of Florida. An extensive program 
evaluation of alternative treatment options for veterans is 
being implemented right now, and 12 of the 15 current 
participants represent community-based nonprofits. It is 
premature and under-resourced to hypothesize results on a 
larger scale as it relates to homelessness, but our current 
standard of practice is doing little to address prevention, and 
these community-based veteran nonprofits providing wellness 
programs are structured to prevent isolation, which is a 
documented cause and result of homelessness, along with 
suicidal ideations and risky behaviors.
    If we can accept societal issues are man-made phenomena, 
then we have the opportunity to change through our constructed 
system of human interaction. We can end a systemic problem, 
like veteran homelessness, through the very structures we 
created or place value on, such as legislation, resources, and 
approaches. So I beg you, for the health and well-being of my 
fictive brothers and sisters, include wellness programs as a 
part of prevention in the legislation you present and in the 
resources you allocate. Thank you.
    [Applause.]

    [The prepared statement of Brian Anderson appears in the 
Appendix]

    Mr. Levin. Thank you for your service and for your words, 
really appreciate your being here.
    Now I would like to turn to Ms. White, and I would like to 
thank you again. I had a chance to read your testimony. Thank 
you for your courage to come and speak to us today, and 
hopefully we can learn from your story both things that worked 
and other things that can be improved.
    So with that, I will turn it over to you for your opening 
testimony.

                    STATEMENT OF MARY WHITE

    Ms. White. Thank you for the opportunity.
    I am an Army veteran. I am also a mother. I became a single 
mother when my son was 1 and also found us to face a 
financially burdened situation. At that point, we had become 
homeless. We couch surfed for a little while before I learned 
that the VA had programs to assist us. I started advocating for 
myself, and that is how I was connected to HUD-VASH. Through 
that process, I was able to also find community organizations 
such as Saint Vincent DePaul's Supportive Services for Veterans 
and Families, and Boley Centers' Federal Employment Grant that 
offers assistance to homeless veterans.
    Saint Vincent DePaul assisted us with finding suitable 
housing and the other financial aspects of actually moving into 
that apartment. Once we had suitable housing, HUD-VASH was able 
to take over with a housing voucher and case management. Local 
nonprofit organizations donated furniture, household goods, and 
sometimes food. They even provided Christmas presents for my 
son.
    Due to having sustainable housing, I was able to go back to 
school utilizing the G.I. Bill and Vocational Rehabilitation 
Chapter 31 educational benefits. I performed my required 
Master's Practicum at the James A. Haley VA Medical Center as a 
social work intern. I graduated with my Master's in August of 
2018. While attending school and working, I received a voucher 
to defray childcare costs through the Early Learning Coalition, 
which is a very limited resource in the community that HUD-VASH 
was able to connect me with. Without childcare assistance, it 
would have been virtually impossible to succeed. Many single 
parents remain trapped in the system due to this barrier alone.
    During this time, in addition to mental and medical health 
care by the VA, I also worked with the VA's Compensated Work 
Therapy program. I also worked with the Boley Centers' Homeless 
Veterans Reintegration program, who assisted with my job 
readiness and my resume. I continue to work with vocational 
rehabilitation employment services and Career Source's veteran 
employment services to find a job that will utilize my Master's 
degree. I am currently an Employment Security Representative 
for the Department of Economic Opportunity.
    All these programs, for me, started with HUD-VASH. HUD-VASH 
interlinks with a multitude of resources to assist homeless 
veterans in connecting us to the needed resources. One resource 
is the Pasco County Housing Authority. They enrolled me in the 
Family Self-Sufficiency and Earned Income Disallowance 
programs, which allow me to continue to work towards financial 
security and independence. I am working with these resources to 
meet my last treatment goal of incoming out of HUD-VASH and no 
longer being eligible.
    These programs and resources available to assist homeless 
veterans are the reason I am where I am today. I am a single 
mother with a Master's degree and working towards becoming a 
Licensed Clinical Social Worker. I am able to support my family 
and maintain a normal living environment for my son. I would 
not be successful without the assistance of these programs and 
organizations that assist the homeless veteran population.
    Even with these resources, barriers remain a very big 
reality for struggling veterans. Transportation is a very major 
barrier. Public transportation in Pasco County is minimal, 
rendering it almost impossible to maintain employment or school 
attendance without a vehicle. The financial burden is 
overwhelming and impossible for the homeless. I was blessed to 
have a vehicle, but the fear of repossession was a reality. 
When my car broke down and I could not afford repairs, I could 
have easily been derailed. But HUD-VASH was able to connect me 
to Wounded Warriors, who helped to pay for my car repairs. If 
they hadn't, I would still be solely relying on these programs 
for financial stability and security rather than phasing them 
out. Without reliable transportation, veterans also remain 
trapped in the system. There are very few resources to help 
obtain and maintain transportation.
    In Pasco County, there are no shelters or transitional 
housing opportunities for women and children, and very limited 
shelter beds for men. Without short-term housing solutions, 
many never have the opportunity to seek permanent housing and 
independence. Mental health and medical treatment are a very 
real option once someone is stably housed in a program such as 
HUD-VASH. However, no dental resources have resulted in major 
medical concerns that derail progress towards independence.
    I entered into HUD-VASH in 2016, and it has taken me just 
under four years to get where I am today. I am still a veteran 
receiving services through HUD-VASH, but I aim not to make it 
to the 5th year. Instead of being a homeless veteran family, we 
are on the path of becoming homeowners with full-time 
employment and being completely self-sufficient.
    The resources my son and I utilized are vital to one 
another and were possible through various grants and programs 
that the VA helped me access. I have personally witnessed both 
sides of these programs, one as a client/recipient of the 
services, but also while completing my internships at the Tampa 
VA. I got to see the clinical and administrative side of the 
programs. It is my goal to put my experiences to good use and 
help other veterans navigate my path to help them meet their 
goals as well. None of it would have been possible without the 
funding Congress provides through Federal grants, HUD, and 
educational benefits. Additional funding is needed for 
emergency and transitional housing, transportation and 
ancillary services that will ultimately save money, as more 
veterans become self-sufficient and productive members of their 
own communities.

    [The prepared statement of Mary White appears in the 
Appendix]

    Mr. Levin. Thank you so much, Ms. White.
    [Applause.]
    Mr. Levin. Very grateful.
    So, as you can see, we have a really, really good panel 
here, and we want to get right to questions, and I would like 
to recognize myself for 5 minutes to begin the question portion 
of the hearing, and then the Ranking Member will have 5 
minutes, and we will probably have more questions after that.
    Mr. Burgess, thanks for being here. You mentioned five 
counties in Florida that have effectively ended homelessness 
for the veteran population in Florida. You discussed the 
definition, but I nonetheless commend you. Flagler County, 
Volusia County, Lee County, Miami-Dade County, and Charlotte 
County. I would really like for San Diego County to get there 
as well.
    What lessons can we learn from these areas to effectively 
end veteran homelessness in other places, whether it be Tampa 
or San Diego or elsewhere?
    Mr. Burgess. Mr. Chairman, thank you for the question. We 
can learn a lot from their experiences and their successes. 
What we have found and what we believe, to piggyback off of Mr. 
Anderson's statement, is that these community-based 
organizations are where everything lives and dies. They are the 
boots on the ground. They are the ones that know the people 
that are within their own communities and neighborhoods.
    So we as a state and as a Federal Government, I believe we 
need to look to them for not just an example but the way I see 
our DVA playing a role in this is discovering what those areas 
that you just identified as our functional zeroes in Florida, 
what did they do right, what were their lessons learned, and 
how can we replicate that statewide, how can we support them, 
as opposed to reinventing the wheel at the next level of 
government. How can we support our local communities, our local 
organizations, and provide them the resources they need to take 
that and have a broader brush, be able to apply that across a 
wider spectrum, and still have that community-based 
localization within each respective area that you wish to 
expand to?
    I believe that that same principle applies to suicide 
prevention among veterans and many, many other crises that we 
are facing when it comes to our veteran community.
    Mr. Levin. Thank you very much.
    Mr. Raposa, I am going to turn to you. We talked before 
about the use of the term ``functional zero'' and perhaps the 
need for a more realistic view. We have a real issue getting an 
accurate count of the homeless, not just homeless veterans but 
the homeless, period. The methodology of the point-in-time 
count could be improved. The data is sometimes misleading. For 
example, the survey doesn't include individuals who live in 
cars or are couch surfing, which leads me to believe if there 
is a better, more accurate way to capture a snapshot of all 
homeless individuals.
    I would like your comments on this, and specifically the 
2018 point-in-time count of 281 homeless veterans in Pinellas 
County, 186 homeless veterans in Pasco County. Do you think 
that is accurate? And if not, how can we get a more accurate 
depiction of the homeless veteran population in the Tampa Bay 
area?
    Mr. Raposa. So, I am going to deliberately choose not to 
discuss the accuracy of it, because there are no two 
communities in Tampa Bay that count the same way. I like the 
pit count, just standing before the Eiffel Tower on the ledge 
facing east with Notre Dame behind you and taking a picture of 
the people who are standing there, and going back 12 months 
later on the same day and taking the same photo. It is a 
snapshot, and it is not an accurate portrayal, and it is not 
scientific.
    The Department of Housing and Urban Development, which 
mandates the count, does not provide--provides zero direction 
to local communities on how to determine that. It is really 
easy to count with your eyes closed, and it is really easy to 
count in areas where you know there are no veterans. We have 
seen as a community in some areas, and not Pasco, that I am 
making reference to, where law enforcement has gone out for 48 
hours to the areas where they know the homeless have gathered 
and antagonized them to the point where they have fled and 
scattered, so that when they have gone back to do the count, 
there was no one there. That, to me, is just not right.
    I think that there needs to be--and I think the 
administration, the staff at HUD and VA and the Department of 
Labor, really need to take a hard look to provide some specific 
structure and some specific guidelines.
    A more accurate look at it is through the AR reporting. The 
AR report is a methodology that HUD uses that every community 
through the HMIS system uploads. It more tracks the flow of 
homeless in the system the other 364 days of who is in shelter, 
who has moved from shelter into permanent housing, who has 
moved from shelter to the street, who has moved from shelter 
and died, who has moved from shelter to jail, and all of those 
transitions. I think that that is a healthier picture for us to 
look at as a community, and we need to be able to take a look 
away.
    There are communities that are afraid to report and afraid 
to count too well in the pit count because they are afraid, 
they are going to lose money if the count shows things that are 
too good.
    If I may, I would like to talk about the difference between 
functional zero and an effective end.
    Mr. Levin. Please do. That would be great.
    Mr. Raposa. Okay. Functional zero--
    Mr. Levin [continued].--[inaudible].
    Mr. Raposa. Well, it is not easy to explain in a few 
seconds.
    So, functional zero is a valid concept and one of the early 
adopters and early leaders in this process of community 
solutions in a nonprofit. However, as time went on and the 
numbers started to show, many of the communities that declared 
functional zero immediately rebounded with a number of homeless 
on the street astronomically in the opposite direction.
    What we have learned through VA and through HUD and through 
partnerships with the local communities, continuums of care in 
the local communities, is that a more systematic and a systemic 
approach needs to be looked at. Your funding of the USICH, the 
United States Interagency Council on Homelessness, has been 
mission critical to this process. They have released five 
benchmarks that local communities need to be striving for. This 
is a much more holistic approach. They are harder to obtain, 
but once obtained, they are easier to manage.
    Three of the counties in Florida that were mentioned of 
having achieved functional zero are struggling to maintain it, 
hence our expansion south, because if they did it again today, 
in all likelihood they would not achieve it today because the 
systemic approach was not developed.
    The communities need to be able to identify all veterans 
experiencing homelessness almost instantly, instant 
identification. The clock starts ticking when we say hello, not 
once you hit shelter, not anywhere else. Once you say hello and 
someone in the system has seen you, the clock starts ticking. 
We need to be able to provide shelter to any veteran that is 
experiencing homelessness and who is unsheltered. You are 
sitting in a community with no shelter beds, and our county 
leadership who are sitting in this room have taken bullets to 
try to put this in place for a local community that does not 
want shelter, and they are amazing. I know Kathy Pierson is 
sitting behind me. Amazing leaders in this, and it is very 
difficult to get the community to embrace that need.
    The community needs to be able to provide intensive 
transitional housing, but only in limited instances. We have 
used GPD and transitional housing too prolifically, and it is 
only for four targeted populations where it actually works. It 
is very expensive to put people into transitional housing.
    And we need to be able to measure the capacity of the 
community to move veterans into housing quickly, and put 
benchmarks behind that.
    And finally, we need to have the resources in place. The 
community needs to have the resources in place to plan, to 
build partnership, to look at a systemic capacity in this so 
that any veteran that becomes homeless or is at risk of 
becoming homeless can do that in the future.
    The challenge with functional zero was that many thought it 
was a one-time thing that you reached. You grab at the brass 
ring, mission accomplished, and we move forward, and that is 
not what the communities have seen, especially here in Florida 
and in California. We are two target communities because of our 
palm trees and our mild winters, and we see about a 23 percent 
increase in homelessness in the wintertime. The community has 
to be able to--it is a more fluid and a more organic approach 
to this than just mere functional zero.
    Mr. Levin. Thank you, Mr. Raposa. We really appreciate 
that.
    [Applause.]
    Mr. Levin. I would like to turn it over to Representative 
Bilirakis for his first round of questions.
    Mr. Bilirakis. Thank you so much. Thank you so much, Mr. 
Chairman. I appreciate it.
    Mr. Raposa, thank you for your exceptional work on behalf 
of our heroes, and I want to thank your organization as well.
    Ms. White, I want to start off with Ms. White, if that is 
okay. Ms. White, first of all, I want to thank you again. You 
are an inspiration to all of us, to all of us.
    Ms. White. Thank you.
    Mr. Bilirakis. And we appreciate it so very much.
    Let me ask this quickly. How many people do you know that 
are a success story like you? How many would you say were in 
your position?
    Ms. White. I would honestly say not many.
    Mr. Bilirakis. Not many? Okay.
    Now I will ask this question. Thinking back, what was the 
one thing that you wish had been made just a little bit easier 
for you to reach your goal of self-sufficiency? I know you 
mentioned transportation and childcare were challenges. But 
what was the biggest hurdle that you faced?
    Ms. White. The biggest hurdle would honestly be childcare. 
Without that, I would have been stuck trying to find a part-
time job so that I could actually find someone to take care of 
my child and afford it at the same time. I would essentially be 
working to pay for childcare. I would never have been able to 
go to school or even have a full-time job.
    Mr. Bilirakis. Okay. Conversely, what was the program or 
benefits that helped you the most, and what would your 
recommendation be to Congress on how to expand and invest in 
this program or benefit?
    Ms. White. The program that probably helped me the most 
would be HUD-VASH and the housing voucher. Without that, I 
would probably still be couch surfing with my son. But 
something that I think the program needs to expand on is the 
full--as you can see from my story, there are a lot of 
different programs that all interlink and work together. Unless 
somebody specifically tells somebody--I am very good at 
advocating for myself. But if somebody was not aware of all 
these programs, some of them would never have been introduced 
or explained to them, so they wouldn't have known how to 
actually get some of these programs.
    For instance, the Family Self-Sufficiency program through 
housing, I was calling every day to find out what things I 
could do to try to get more self-sufficient for myself and my 
son, but I would never have been introduced to those programs 
unless I hadn't actually extended my own hand to do it for 
myself. So I just think that better communication between the 
actual programs and referrals to one another would help a lot.
    Mr. Bilirakis. Okay. And also, for the audience and all 
veterans, please contact our office, our congressional office, 
because we can refer you to those programs.
    Public awareness is so very important. But let me ask you--
maybe I missed this. I know that you are an exceptional woman, 
but how did you know to get in contact with the housing?
    Ms. White. It was kind of a nonchalant--I was kind of 
looking for a job, and I had come across one of the programs 
online. I didn't know if our housing authority actually had it, 
so I kind of called and found out.
    Mr. Bilirakis. Okay. Thank you very much.
    Ms. White. Thank you.
    Mr. Bilirakis. I know we are going to have a couple of 
rounds. Mr. Chairman, can I ask more--
    Mr. Levin. Go ahead.
    Mr. Bilirakis. Okay. This is for the entire panel, so we 
will start with the Director of Haley. My good friend is doing 
a good job, by the way, a very good job.
    From your point of view at the local level, what is the one 
message that I need to take back to Washington with me that 
would make your job easier or would reduce homelessness among 
veterans? And that is for the entire panel.
    Mr. Battle. Well, thank you for the question, Congressman 
Bilirakis. For me, what I am seeing from a big-picture 
perspective, it is rapidly rising rents, and how can we adjust 
HUD vouchers to be able to accommodate for rising rents in 
different areas and having affordable housing, having a 
mechanism. As the gentleman said, he couldn't get a bank to 
loan money, and this is a project-based voucher project where 
we provided vouchers to help support the pro forma for that 
project. Apparently, it wasn't enough for them to get a loan. 
So some way to have these projects where they could be 
guaranteed, kind of like a VA home loan, if you will. But how 
can these projects get guaranteed backing where they can get 
funding to build more affordable housing, because the biggest 
problem I am seeing in Florida overall is people are still 
moving to Florida, they want to live in the state, and it is 
driving rents up.
    There was just an article in the newspaper on August 29th 
about rapidly rising rents in this area of Florida. So anything 
we can do to provide help with that.
    Mr. Bilirakis. Very good.
    Dan?
    Mr. Burgess. Thank you, Ranking Member Bilirakis. I still 
have to call you that. I will call you Gus after the meeting.
    Mr. Bilirakis. All right.
    [Laughter.]
    Mr. Burgess. Thank you, Ranking Member. I would say that a 
key takeaway from today's meeting that I would love for you to 
take back to D.C. would be the need for enhanced transitional 
programs for our servicemembers that are getting out of the 
service. We do a really good job, I believe, in the military of 
teaching servicemembers to put their uniforms on, but maybe not 
as good of a job teaching them how to take it off. So I believe 
it is absolutely mission critical that we have a more 
structured, unified approach to that, as opposed to, say,--you 
hear veterans say it all the time, the ``check the box'' type 
of approach. I believe that there is the first line of defense; 
not the only defense, of course. It is wraparound services, as 
you mentioned, Ranking Member.
    But we absolutely need to, I believe, do a better job of 
helping servicemembers take that uniform off and find their new 
purpose here in the civilian world and connect them to those 
resources, connect them to those jobs, and I believe FDVA can 
play a big part in that in being partners with our Federal 
partners at the VA, and of course DoD and other initiatives, by 
utilizing our veteran claims examiners, our VCEs, who are also 
our outreach individuals who do excellent work, and making sure 
that we are being more proactive here in the State of Florida, 
as opposed to reactive when a veteran calls us, or maybe 
finding ways that we can reach out to them and see if we can 
help them get connected to their earned benefits and services, 
as opposed to maybe years later somebody tapping them on the 
shoulder and saying you should probably check in to see if you 
are eligible for some benefits. That is an all-too-common 
occurrence. So maybe we can help bridge that gap that way.
    Mr. Bilirakis. Very good, Captain Burgess.
    [Applause.]
    Mr. Burgess. Thank you, sir.
    Mr. Lambert. Congressman, I think one of the biggest 
things--and our county has been very progressive. Kathy Pierson 
has been excellent for us, and Dan Viles and our commission on 
moving things forward. I can't say that enough, what a great 
team, and we were certainly behind the eight ball.
    But I would say this to the gentleman who oversees Haley: 
it is access to capital, quite frankly, to build affordable 
veteran housing units for families and for single people, folks 
that are homeless. Just take a look at our project, and we will 
build that project right now on Massachusetts Avenue. But banks 
will not lend us money even though the county has put a million 
dollars behind this project. Danny and I are working with our 
legislative partners to try to get a $2 million budget request, 
and we put about $1 million together for it. We have the 
property; it is a PUD. But it is access to capital. Our balance 
sheet is so low with HUD because we are not designed to make 
money. We are designed to exist and to provide, try to provide 
affordable housing communities for our most at-risk 
populations. But because of that, we cannot get banks to 
finance us for these types of communities.
    So even though this project is going to be backed by HUD-
VASH and Section 11, I believe, homeless vouchers are vouchers 
for folks with mental illness, we still can't get a bank to 
lend us money, unless you go out to developers. By the way, 
when you go out to those folks, get ready to add about 25 
percent to the project cost. It will increase because they are 
going to make money off this project. They are not in the 
development business.
    And that is a key component for us. We are taking on this 
project to do it ourselves, but that is a key component to us, 
to ensure that we have affordable housing so when the rents 
rise within our market area, we can pretty much stay at or 
below to continue to make sure that the VASH voucher in this 
particular instance funds the project so it remains a viable 
project, so it supports itself so we can make the improvements 
that we need within the community. To me, that should be a 
pretty simple thing to do because HUD has backed loans 
historically to build housing communities across the country, 
and they have transitioned out of building public housing and 
things like that, which I don't think is a bad thing.
    But why can't HUD--I believe that HUD should be able to 
back these types of housing communities and provide oversight 
of these housing communities when they back it to ensure that 
they are viable and to ensure that they are maintained the way 
that they need to be maintained, and to ensure that we can 
increase veteran housing stock.
    You have housing agencies that you fund all across the 
country every day, the Tampa Housing Authority, places like 
that. But if we can't build housing, then we have problems, 
Congressman, and it is access to capital, especially when there 
is a project like this that will easily cash flow. We shouldn't 
be having a problem to get this project built.
    Mr. Bilirakis. Thank you very much. We already came up with 
an idea based on your testimony.
    I will turn it to Mr. Raposa. What can I take back to 
Washington with me so that we can make your job easier and help 
our heroes?
    Mr. Raposa. So, we might--in the backup to my testimony, 
there is great specificity that I obviously couldn't get to in 
my opening remarks. I want to tell you right now that if we 
could convince the State of Florida to release the Sadowski 
Trust Fund, we wouldn't be having this conversation.
    [Applause.]
    Mr. Raposa. We wouldn't need to have this conversation. Our 
local health authorities wouldn't have to grovel to get the 
money to fulfill the mission which they are funded to do, and 
they are supposed to be doing, and the Federal Government 
wouldn't have to come in and save us. We have the set-aside 
money in Tallahassee. It is sitting in an account and being 
used for purposes other than that which the voters put into 
place for it.
    I think that the greatest thing that we have going on right 
now has to do with our ability to subsidize housing short term 
and long term. An initiative under the Supportive Services for 
Veteran Families program that is currently being piloted in 10 
BOCs, and none of ours is one of them, has to do with child 
subsidies. It would give the grantee the ability to take a 
situation like Ms. White, who is really, really working hard, 
working with the Department of Labor's Homeless Veteran 
Integration program, to get an education, to get better job 
training, to carry the subsidy that we currently offer them 
from six months to nine months, to up to two years, and that 
would allow greater stabilization in those families.
    It is currently being piloted in 10 communities across the 
United States. I think a large number of them are in 
California, either in San Diego, L.A., or San Francisco, that 
really do have a market issue there. But our veterans need more 
time in the program to stabilize the economic situation of 
their family. We are oftentimes struggling to get them to stand 
on their feet in a matter of nine months or twelve months.
    I think that if we can expand this--and we know that 
everything happens as a pilot. But I think that if we can 
expand this across the country or in areas where high demand 
and rental issues are, I think that that would be something 
that could be taken back.
    I have already spoken to you about lowering the barrier for 
HUD-VASH in allowing a little bit more wiggle room in who is 
able to jump through the eye of that needle, and we have begun 
the process of waivers in some of our communities to make those 
vouchers available to more people. But I will tell you that the 
landlord community and the free-market system is reluctant to 
take a voucher of any kind to subsidize it because of the lack 
of quality case management services that has happened in the 
past, that that needs to be beefed up, because we are not 
having an issue. St. Vincent DePaul is not having an issue in 
re-housing people.
    We have put 683 households from homelessness into housing 
since October 1 of the current fiscal year, 683, all of which 
are stable, and it is because of our relationship with the 
landlords that we are able to do that.
    Mr. Bilirakis. Thank you very much.
    Mr. Anderson?
    Mr. Anderson. Ranking Member Bilirakis, Chairman Levin, I 
think it is pretty great that Danny kind of brought up 
transition. On the transitional webpage, there are actually 
five paragraphs about psychosocial well-being or mental health 
care, behavioral health care. Inside the manual there are three 
paragraphs about it.
    Transition and wellness and psychosocial well-being don't 
really pair. Instead, what we have done is we have taken 
transition counseling and we have put it on the vet centers, 
and the vet centers are not designed for transitional 
counseling.
    So we have this problem with wellness, but every single 
place I go, and I travel a lot--I like to fly. Every single 
place I go, I meet another organization that is providing 
community-based wellness programs for veterans in that area, 
yet we are not a part of the interdependent practice of serving 
veterans. So it is only through VA grants, like the sports 
grants and physical fitness grants, that you become part of 
that. It is only through legislation passed at the state for 
alternative treatment options for veterans that you become part 
of that.
    We are helping in the mental health/psychosocial area, and 
I think these nonprofits that are across the United States 
really need to be part of this game. They are interwoven into 
our societies, and they need to have a bigger seat at the 
table.
    Mr. Bilirakis. Very good. Let me add that the COVER Act, 
Brian, which brings in alternative therapies into the VA, they 
have just completed their work pretty much, and we have some 
really good government agents. I asked them if they could give 
me a hint as to what those recommendations might be. They said, 
well, we will know in about a month, but it was very, very 
positive. So I look forward to following up with legislation to 
make sure that alternative therapies are available for all of 
our veterans to access through the VA.
    Ms. White, please? Again, what message--I know we touched 
on this a little bit, but what message do you want to give me 
and the Chairman to take back to Washington to see how we can 
help you and others like you?
    Ms. White. I would honestly love to see some of the 
barriers--I know they won't get broken down, but I would love 
to see some of them just minimized a little, such as the 
transportation. It is just very hard to actually move up in the 
world when you have no transportation to do it.
    Another one would be--I know I have worked with homeless 
veterans who have no teeth or no front teeth, or just a lot of 
dental work that needs to be done, and it is a huge barrier for 
employers when they go in for job seeking. So that is 
definitely something that I would love to see touched on as 
well.
    Mr. Bilirakis. Very good. Thank you so very much.
    And I yield back, Mr. Chairman.
    Mr. Levin. Thank you.
    I wanted to just, very briefly, address two of the topics 
discussed to let you know kind of the lay of the land in 
Washington on transition assistance. We actually passed in the 
House earlier this year H.R. 2326. It is the William Mulder 
Transition Assistance bill. It is named for a very good friend 
of my colleague, Jodey Arrington, Republican from Texas. A good 
friend of his, Bill Mulder, they went to high school together 
and he served in Iraq and, of course, he took his own life. My 
friend, Mr. Arrington, believes had he had better transition 
assistance, that may have been prevented. So the bill is 
designed to really ramp up transition assistance, including a 
lot of off-days transition resources and grants for perhaps 
places like Florida or California where they are trying to do 
innovative things and have more collaborative relationships 
between the community and the veteran service organizations in 
those jurisdictions.
    So that bill right now is in the Senate. We have been 
working with our friends Johnny Isakson, Senator Isakson, and 
the Ranking member, Jon Tester, to try to get that language 
inserted in a package of veteran legislation that we are 
hopeful will be voted on and will pass the Senate sometime by 
the end of the year. That is what we hope, so knock wood on 
that.
    On the financing issue, it is really interesting. I know 
the Ranking Member and I will talk about this. I think it is 
probably going to require our colleagues in the Financial 
Services Committee to get involved, and maybe Appropriations as 
well. But it is one of those where I think we will definitely 
take a look and try to figure out what can be done.
    Mr. Battle, I want to turn to you for some questions. 
During our Committees, we have a Member Day in the Veterans' 
Affairs Committee. In fact, all the Committees have that same 
Member Day, where members that are not on the Veterans' Affairs 
Committee come in and testify about what they would like to see 
our Committee do. There were a few members of Congress that 
echoed an issue that I hear in my own district in San Diego, 
and really it is that there is a delay in the VA referring 
veterans to public housing authorities through HUD-VASH.
    Mr. Battle, can you briefly talk about your intake process 
for veterans who seek HUD-VASH resources?
    Mr. Battle. Chairman Levin, thank you for the question. 
Yes, I can. An initial intake, we try to turn that around 
within 24 hours. Maybe if it is a holiday weekend, it may be a 
little longer. But business days we try to turn that around in 
24 hours because the person needs help. And then once that is 
done, then it goes to the public housing authority to start an 
orientation process after that. That is what we try to do. 
Usually in the orientation process where a voucher would be 
issued, that step can take two to four weeks, depending on 
where you are at. And then once the voucher is issued there is 
a housing search, and that search can vary depending on the 
ability to find housing.
    But usually in three or four weeks they would look for a 
place to live, and then you have the rental application 
process, which is generally around three to five days. Then you 
have the housing inspection where the inspector has to come and 
validate that it meets HUD standards for someone to live in it. 
That typically can take up to a week to get that inspection 
done. And then signing a lease to move in is another three to 
five days.
    So when you add all that up, you have a nine-week 
timeframe, something like that.
    Mr. Levin. Got it.
    Another issue that you hear a lot is that the VA nationwide 
is suffering a shortage of support staff, and specifically HUD-
VASH case managers. In fact, I think I even heard that today. 
Would you care to comment on the HUD-VASH program and the case 
workers themselves?
    Mr. Battle. Sure. At the Haley VA today, we have five case 
workers and one social worker associate assigned to Pasco 
County. One of those case workers is vacant. It has been hired. 
Selection has been made, and that person is going through the 
boarding process to fill that position.
    Overall across our enterprise, we have around 70 people 
associated with homelessness. That also includes vocational 
rehab. It includes veterans' treatment court, HUD-VASH, some 
substance abuse and other things. Out of the 70 FTEs 
altogether, we have three vacancies. Two of those are case 
workers, and one is a VJO that has to be hired.
    Mr. Levin. What hurdles do you face in hiring, and what can 
we do in Congress to provide the resources to help you in the 
hiring process?
    Mr. Battle. Well, thank you for that question. The hurdles 
we have in hiring, fortunately in Florida we have been able to 
hire social workers and mental health professionals that are 
affiliated with homeless programming. The process of going 
through and getting someone on-boarded, a social worker, for 
example, who has a clinical background, and so they have to go 
through a boarding process and their credentials have to be 
verified, and that takes some time.
    Mr. Levin. Thank you.
    Ms. White, I wanted to turn to you and ask you whether your 
experience lines up with all of that, and specifically--and I 
want to thank you again for your candor and your courage to 
come and speak with us all. It is not the easiest thing in the 
world to testify, but you are doing a great job, and you are 
really helping to inform us as we go back and try to, again, 
craft good policy.
    Can you speak to, I guess, the timing, what the HUD-VASH 
application process looked like for you and kind of walk us 
through how that process worked?
    Ms. White. Yes. It roughly took us about three months from 
the day we actually started intake to actually move into an 
apartment. So the timeline is actually pretty much perfect 
right there. The same thing, we also had St. Vincent DePaul in 
that timeframe also assisting us with finding housing as well.
    Mr. Levin. And you had mentioned before getting childcare, 
the importance of getting childcare. Where did the--I guess 
which program did you take advantage of to be able to get 
childcare?
    Ms. White. The Early Learning Coalition.
    Mr. Levin. And do you happen to remember, if you care to 
share this with us, do you happen to remember roughly how much 
a month was provided or how long it took to get the program--
    Ms. White. I was actually on the waiting list for the ELC 
voucher for about a year, and then once I had entered into HUD-
VASH, it just so happens they called and said they had a couple 
of vouchers just for veterans, which is very, very rare. So it 
actually went from a year to you have it. And they actually do 
it based off of income. So at that time I was paying, I 
believe, when I first initially started, about $25 a week for 
childcare.
    Mr. Levin. Another question. When we had an advocate for 
homeless veterans, homeless women veterans specifically come 
and testify before us in D.C., she had mentioned that there are 
some who are afraid to come forward and to try to seek services 
or support because they don't want Child Protective Services or 
someone else to say what is going on with this child.
    I guess how did you overcome that? Were you ever worried 
about that? Did you have anybody at VA or otherwise that did 
anything to assuage your concerns about that?
    Ms. White. A little bit. I had my son through the VA, so I 
had known the social worker at the outpatient clinic over here 
in New Port Richey, and I kind of briefly talked with her about 
the homeless situation, what would happen with my son, because 
that was the last thing I wanted, for my son to be taken away. 
So just talking with her kind of helped me, that reaching out 
for help wasn't going to harm us in any type of way. So that is 
when I found out that there was HUD-VASH and everything like 
that, and I was able to actually get in touch with those 
programs at that point.
    Mr. Levin. So that is really interesting. If you hadn't 
known, if you hadn't had your child through the VA, you may not 
have known that social worker. So that really is a real 
problem, and I think it is important that we are always 
thinking about what we can do to better educate folks who are 
in need, that we are going to be there to help and that they 
are not at risk of losing their child by getting the support.
    I want to turn it over to my friend, Mr. Bilirakis, if you 
have more questions.
    Mr. Bilirakis. Absolutely. Thank you very much, Mr. 
Chairman. I appreciate that.
    I want to start with Mr. Battle, if that is okay. What role 
does substance abuse and mental health play in hindering 
success for the chronically homeless, and which programs should 
we be investing in to address this particular issue?
    Mr. Battle. Ranking Member Bilirakis, thank you for the 
question. Substance abuse and mental health issues clearly play 
a role in the homeless situation. As a result of those issues, 
veterans may experience incarceration, they may get evicted 
multiple times from housing that they have been in. Again, 
employment can be an issue. Transportation can be an issue. So 
all those things play against the substance abuse.
    Now, in our homeless program, we actually have two 
substance abuse staff that work in the homeless program that 
are not mental health; they are embedded. We also have some 
ARPs embedded in the staff. We are a facility that also has a 
homeless primary care clinic that homeless veterans can walk 
into. So we look at this as a no-wrong-door approach, whether 
it is us or the community, and we try to follow these veterans 
to those services that they need. We do look at it from a 
housing-first perspective. We want a person to address their 
health care needs, in this case if it is mental health and 
substance abuse. If they don't have a safe place to sleep, the 
chances of them addressing those issues are very slight. So we 
try to approach it from those perspectives.
    So anything that we can do as a collective, the VA and the 
community working together. One of the things that we tried to 
do recently is work with more faith-based organizations. While 
clergy may not be mental health counselors, a lot of people 
will go to them. So we want to make sure the clergy know how to 
direct these veterans to resources where they can get the help 
they need. So that is something we have been doing more of in 
the last couple of years in that regard.
    But from a congressional perspective, I would say making 
sure that we have the resources to continue providing the 
support that we currently have is the most important.
    Mr. Bilirakis. What about those who are being released from 
incarceration?
    Mr. Battle. Well, thank you for asking that question. We 
try to safety-net those veterans. What we believe is that if a 
veteran is incarcerated or in jail with the potential of long-
term incarceration due to a mental health or substance abuse 
type of issue, or maybe a physical issue that manifests a 
certain way, we would rather have that veteran in treatment 
where we can take care of them where they can reintegrate into 
society in a productive way, and that we are not using 
resources of the Federal, state, or local government to keep 
them incarcerated. We are not necessarily helping anybody by 
having them incarcerated. If we can get them in treatment, that 
is life changing, and that is what we need to do.
    Mr. Bilirakis. I see my friend, Judge Crane, in the front 
row. Do you work with the veterans' board in all these counties 
that you--
    Mr. Battle. Yes, sir, we do. In fact, at the homeless stand 
down here in Pasco County, the judge runs court there, and we 
work with them to help veterans get certain legal issues taken 
care of. In Hillsborough County, we actually host a court once 
a year at our hospital, at our primary care annex, and the 
county court there actually comes to the hospital.
    Mr. Bilirakis. Very good.
    One follow-up to the Chairman's question with regard to 
medical professionals, medical providers, in this case 
specifically doctors. I have heard that doctors want to work 
with the VA, but it takes so long for the verification process, 
sometimes a year, so they just give up and go back into the 
private sector. What can we do to fix that issue? I mean, I 
don't think it needs to take a year to get verification as to 
what their qualifications are when looking into their 
background. Can you give me some suggestions on that?
    Mr. Battle. Well, I can give you one in particular. The VA 
historically, every time a person comes to work at a particular 
facility, we require primary source verification for every one 
of those, even if they are transferring within the VA. One 
thing might be if we could do primary source verification 
within the VA once, and then if you are moving around within 
the VA, you wouldn't have to do that again.
    Mr. Bilirakis. That makes a lot of sense.
    Mr. Battle. Or even for the Federal Government. If someone 
was in the military wanting to come to work for the VA and 
their stuff had been primary-source verified, do we need to do 
it again?
    Mr. Bilirakis. That makes a lot of sense. Even volunteers, 
doctors who want to volunteer their services, it takes so darn 
long for them to do it, and they get frustrated. So they will 
go work for a free clinic instead, which is good too. But the 
fact is I want to tell you that all these witnesses are in the 
field. They are boots on the ground. They are grassroots 
people. They are in the community talking to veterans. So you 
are not getting any lawyer answers here today, the lawyer 
answers that you would get in Washington, D.C.
    So I have a proposal for you, Mr. Chair. We can, instead of 
having our hearings in Washington, D.C., we can have half in 
San Diego and half here in Florida. How does that sound?
    [Applause.]
    Mr. Levin. If that means I get to see my wife and kids 
more, I can deal with that.
    [Laughter.]
    Mr. Levin. Well, I wanted to thank the Ranking Member for 
his excellent questions. We will begin to wind this up.
    But before that, I wanted to ask each one of you--just go 
in order--what we missed, what questions didn't we ask, what 
comments do you have to inform our work in Washington.
    Mr. Battle, I will start with you.
    Mr. Battle. Thank you, Chairman Levin. I appreciate the 
opportunity. For us, combating homelessness is very much about 
having affordable housing for veterans to be able to take 
advantage of. I see that overall as a huge issue that is 
preventing us from getting homelessness not only down to zero 
but below that. It also would allow us the opportunity to 
safety-net veterans in a more efficient manner to have that. So 
anything we can do along those lines would be much appreciated.
    I would also be remiss if I didn't mention one thing that 
began in our hospital a few months ago, and actually it is 
about a homeless veteran who passed away. Many times they have 
no family or no one to claim them. One of our employees saw a 
hearse coming to get a veteran to take him to the National 
Cemetery to be buried, and nobody was going to be with them. 
They were just going to go up there and be interred.
    Our employee said, you know, that is not right, we need to 
do something. So his veteran organization, Combat Veterans 
Motorcycle Association, they have started a program that is 
starting to spread across the country, and it is an honor 
escort where they actually escort that veteran to the National 
Cemetery and make sure that they have proper honors for their 
last act. While that is kind of on the back end of the issue, I 
think it is still nonetheless important that every veteran, if 
they are homeless, they have value in their life that means 
something, and that people want to honor. So I would like to 
leave you with that.
    Mr. Levin. Thank you.
    [Applause.]
    Mr. Levin. Mr. Burgess?
    Mr. Burgess. Thank you, Mr. Chairman, Ranking Member. It 
has been an absolute honor to be able to be here today and 
participate in this worthwhile and engaging discussion with 
these experts. I have learned more today than I ever knew 
before on this topic coming into today, so I think we are all 
better for what we have gone through and where we can go from 
here.
    I think what I would like to do in the short time that I 
have to be able to close is to just give a plug for the State 
of Florida, as well as for this community here. I think it is 
no coincidence that we are here in Pasco County. The people 
here lead the way every day on community services and support, 
whether it is veteran homelessness or any other type of 
opportunity to help our neighbors in need.
    So Pasco County is a great example of that, but even more 
so across the State of Florida. Florida is the bellwether state 
of the Nation. We are such a diverse state. We have a little 
bit of everything here that is out there in the rest of the 
Nation, which makes us a great test site, a great beta test 
site to pilot programs, to pilot initiatives. We have such an 
amazing working relationship with VISN-8 and our partners at 
Haley and across the State of Florida and the Federal VA 
system. There are plenty of examples of existing partnerships 
that we have had a lot of success with.
    So I would just like to encourage the Committee, encourage 
our friends and partners in D.C. that when you are looking to 
implement a program--the PREVENTS Program is a great example 
with the suicide prevention--look to Florida. We will work with 
you. And we also, I believe, are just a great conglomerate of 
opportunity for that test and that result that could then be 
multiplied and set a standard nationally.
    Mr. Levin. Thank you.
    Mr. Lambert?
    Mr. Lambert. Mr. Chairman, thank you for coming. 
Congressman Bilirakis, it is always a pleasure. You are a great 
asset to our community and a great congressman. We appreciate 
it.
    I appreciate your comments on saying we need to get out of 
Washington and not have attorneys come and testify before 
Congress, because they don't really represent what is going on 
within our communities. The people who are volunteering here 
each and every day--and I am a volunteer, as the Chairman of 
the housing authority--see what is going on, see the resources 
that have worked, and see the resources that you have allocated 
that have been extremely wasted.
    I leave you with this conversation: housing first. Housing 
is critical. We have to have access to capital. We have to have 
housing for our veterans, but for every member of our 
community. We are the greatest Nation in the world.
    We see when people get housing, then we can get them into 
recovery.
    The electric cooperative, my regular job that I actually 
get paid for, we have seen an initiative for recovery, recovery 
through work so that folks with a mental illness--and we serve 
veterans at Benson House, the clubhouse model--can get into 
recovery and we can partner with transitional employers to get 
these folks jobs.
    Many of our veterans who come in have had brushes with law 
enforcement. That is an issue. So when they go in and they talk 
with an employer, we know what is going on with them. Then we 
can transition to the work component to get them back into the 
workforce, because there is dignity in work. I have not met a 
veteran, or I have not met someone who is homeless that doesn't 
want to go to work, that doesn't want to have a full and 
sustaining life, just like Ms. White did for her son.
    Then I would say the housing authority, which I am very 
proud of, implemented a self-sufficiency program. No veteran, 
no person who is homeless, wants to be on a lifetime of 
dependency for the Federal Government. Family self-sufficiency 
is absolutely critical in those steps. When we get them in 
there and we can get them in and start working through the 
Family Self-Sufficiency Project and get them a home and get 
them a permanent roof over their head, you will have basically 
taken them from homelessness through recovery, into the 
workforce, to a permanent roof over their head, and then you 
will have success.
    Listening to some group of people who come to Washington to 
tell you that probably don't have an idea of what we are faced 
with and challenged with within our community with the 
Department of Veterans Affairs, with our local county 
government, and with St. Vincent DePaul and Veteran 
Alternatives, this means everything to the people in these 
local communities because we are facing it every day. If I can 
tell you that, I can tell you housing, recovery, mental health 
counseling, training--training is absolutely critical.
    So at WAC, we have a training program for linemen. 
Electrical [inaudible] across the country have made veteran 
employment a first option for us. So we have apprenticeship 
programs. We are facing a severe shortage of linemen. They come 
in, they are allowed to use their VA GI Bill, and then we put 
them through a five-year apprenticeship program. When they 
leave our program and they are employed, they are making a six-
figure salary with overtime, usually, which enables them--and 
yes, there are some challenges. We have veteran service 
officers that help us with those folks. We know that there are 
challenges, but we make that a priority with the employment.
    So working and self-sufficiency will lead to permanent 
housing, stable families, and we can keep them in recovery and 
into work and be productive citizens in our society.
    So I thank you for coming today and I look forward to 
seeing us do a lot of great things together.
    Mr. Levin. Thank you, Mr. Lambert. I appreciate that very 
much.
    [Applause.]
    Mr. Levin. Mr. Raposa?
    Mr. Raposa. So again, I echo the incredible sense of 
gratitude to be here. It is really easy to focus in on what is 
broken and what is wrong with us, but I have to tell you that I 
was just appointed this year by our organization as one of 15 
ambassadors for homelessness and affordable housing development 
across the planet to work within the veteran family, and also 
work within the Catholic Church and the Vatican.
    In the two meetings that we have had, we are the only 
Nation on the planet that has solutions, and we have begun the 
process to educate the rest of the planet on what is working 
here in the United States of America. It is easy to focus in on 
what is wrong with us, but the fact of the matter is that in 
the last 15 to 20 years, the delivery of services has been 
revolutionized, and we are well on the way to achieving great 
success, and it is a matter of fine-tooth-combing and getting 
some stuff in mind.
    The first and foremost thing that you need to take back to 
Washington has to do with the need for a systemic and 
systematic approach to doing this. There are communities across 
this country that are claiming to be functioning in the system, 
and they are claiming to be doing a systematic approach to 
this, but they are not, and the numbers are beginning to prove 
it, and the data is beginning to prove it.
    I think those of us that are should be reinforced, and 
those of us that are should be given the opportunity to kind of 
take the lead and fix that in other areas.
    I have grave concerns about the HUD-VASH program and about 
the service delivery within the HUD-VASH program. You do not 
have the housing location services in that program that are 
required. When you look at the recidivism rate and the success 
rate of the Supportive Services for Veteran Families program 
going back to 2012, we are running year after year after year 
with an 85 percent or higher success rate. This means that 
these veterans, once housed and once stably housed, do not 
return to the homeless system. I think it is time to take a 
look and try to model the delivery of services under HUD-VASH 
in accordance with the successes that have been proven through 
SSVF. This has to do with housing location. You have Master's 
degree case management people who are brilliant and excellent 
in the field, but they are not housing locators. The housing 
location function needs to be introduced into that HUD-VASH 
system.
    And also, the relationship with the landlords long-term is 
really, really lacking. We have landlords in our community that 
will rent to us who will say I will do it as long as you are 
not going to turn the case over to HUD-VASH, and that is a 
problem, and I don't believe that we are doing anything 
extraordinary. It is about relationship-building, and I liken 
it to the only healthy triangular relationship that exists on 
the planet, because triangular relationships are clearly not 
good in interpersonal relationships, but they are good when it 
comes to housing veterans. It is the relationship between us as 
an agency and the client, the veteran, and it is also a 
relationship between us and the landlord, and then the lease 
becomes the relationship between the landlord and that veteran. 
We maintain that triangular relationship even after we close 
the case, and we maintain that relationship so that the 
landlord knows that if St. Vincent DePaul has his or her hand 
on that client, we are never letting that client go, and 
therefore landlords are willing to rent to us.
    This is a huge issue, and I also think that a huge issue 
within the HUD-VASH program is the case load ratio to case 
manager. They cannot effectively manage a chronically placed 
veteran in housing with their emotional, mental, and 
psychological needs anything above 25 to 1. It is just not 
humanly possible, and our state welfare system can prove that, 
because the last thing that our state welfare system--I don't 
believe that we have the issues that you see in other parts of 
the country where families are afraid they will have their 
children taken away, because our state welfare system, they 
can't afford another child in shelter.
    We don't have that worry, and we address that right from 
the beginning. They tell us, ``Please, please, please, please, 
please, continue to intervene,'' because there is no more 
capacity in the child welfare system across this country, and I 
don't know of a state that has extra capacity in child welfare.
    So there is a lot of work to do, but I have to tell you, we 
are a lot better than we think we are. When you take a look at 
what is happening in Europe and what is happening in Australia, 
and even what is happening up in Canada, and what is happening 
in Africa and all of these other areas where I now have access 
to what is happening in those areas, we are really in a good 
spot.
    Mr. Levin. Thank you, Mr. Raposa. I appreciate that.
    [Applause.]
    Mr. Levin. Mr. Anderson?
    Mr. Anderson. Well, I heard a lot of talk about capital. We 
can always change the tax laws and allow nonprofits to have a 
share of the market. But it is probably a bigger obstacle to 
overcome.
    Prevention. I mean, we talk about it and it is always 
brought up, but when are we ever actually applying and 
allocating resources towards prevention? I think it would help 
out on the back end quite a bit. Are we going to catch 
everybody? That is not the reality. But if we can catch a 
majority of these guys through prevention--and I am looking 
forward to looking up H.R. 2326 to find out what that entails. 
But I think that preventive maintenance, being able to have 
some of these programs, will help us reduce a lot of the social 
isolation, the isolation that our warriors face.
    The University of Southern California did a study. They 
found--not one study; they did multiple studies in various 
areas. And they found three-quarters of our veteran population 
felt disconnected from the civilian world. That is already 
isolation in itself. So that is something that we have to 
combat. We are taking guys from an institution and bringing 
them into this open world, and they are feeling isolated, and 
that is what leads to so much of what we have that are 
problems--suicide, suicidal ideations, risky behaviors.
    So at some point, we need to start taking a look at how we 
can prevent that social isolation that these warriors are going 
through after they leave military service. Thank you.
    Mr. Levin. Well, hopefully the veterans of the 12th 
District, and for that matter California's 49th District, know 
that they are not disconnected, that at least in their 
congressional offices that they have a place where they can 
turn for resources and for fellow veterans to actually work in 
those offices.
    Mr. Anderson. On that, sir, just real quick, you guys 
passed the COVER Act back in 2016. It took about three years to 
pass it, and then it took about three years for the Committee 
to start. But my friend Danny Burgess down there on the end, he 
put it up in the State of Florida because this is good 
legislation, and he said we are going to get it going as quick 
as possible, and it took about three years to pass it. But now 
it has passed, and it is actually going into formation right 
now. So when he said that Florida would be the perfect test 
site for some of these programs, we are actually laying the 
foundation to be the test site.
    Mr. Levin. Very good.
    Ms. White, some closing remarks?
    Ms. White. I just want to thank you again for the 
opportunity for veterans like myself and other veterans like 
myself. I am really looking forward to hopefully seeing more 
success stories like mine in the future. And given some of the 
subjects that were touched on today, I am hoping that is going 
to start soon. So I just want to say thank you. I know just 
from my experience, the programs that I have dealt with, they 
have phenomenal people. A lot of my case managers are actually 
here today from HUD-VASH. Even without their individual 
assistance, looking at my situation individualized, I wouldn't 
be where I am. So I just want to say thank you.
    Mr. Levin. Thank you so much.
    Well, I will have a few closing comments. I know the 
Ranking Member will, too. Before that, I want to just say thank 
you. I want to say thank you to everybody in this room for 
spending a good chunk of your morning with us.
    I want to thank our law enforcement. Can everybody thank 
our law enforcement?
    [Applause.]
    Mr. Levin. I want to thank the amazing staff of the House 
Veterans' Affairs Committee. Can you all raise your hands?
    Can we give them a round of applause also?
    [Applause.]
    Mr. Levin. We are actually live streaming this on YouTube. 
I hope we got some people to watch. If they are watching right 
now, thank you for watching. But we had the great audio-visual 
folks come out to live stream this as well, and it is really an 
honor to get to do this.
    I learned a lot today that did not come up in California, 
and between those two, I think we got a whole bunch of 
information that we are going to use in the weeks and months 
ahead.
    With that, I would like to turn it over to my friend. Not 
just for hosting us today but for all the work that you do and 
that we continue to do together, I am truly honored to get to 
serve with you, Ranking Member Bilirakis.
    Mr. Bilirakis. Thank you very much, Mr. Chairman. I really 
appreciate you bringing this hearing to Florida.
    You know, as a matter of fact, we were going to have 
possibly the gentleman here that represents the St. Vincent 
DePaul. He was thinking about coming out to California, but he 
didn't get the approval, so we brought it here to you.
    [Laughter.]
    Mr. Bilirakis. He did a wonderful job in the community, all 
of you, and I know you all personally, and I know the veterans 
know you. More importantly, the veterans know you all 
personally, and I think we got a lot of suggestions, great 
suggestions today.
    I also wanted to thank the organizations that came out 
today. I haven't had a chance to shake their hands, but I would 
like to. This is a wonderful community. I know I am biased, but 
I think it is number one in taking care of our veterans in the 
Tampa Bay area. We just have great people, volunteers, 
volunteers, and they give their time to our veterans, and they 
work together.
    I want to specifically thank our Vietnam veterans for 
making things easier for the veterans from our current military 
personnel. When they become veterans, they are going to have it 
a lot easier because of our Vietnam veterans.
    If you are a Vietnam veteran, raise your hand, please.
    [Applause.]
    Mr. Bilirakis. We love you all, all the veterans. But 
again, the Vietnam veterans stand out because they are selfless 
in their service. They were selfless in their service in 
Vietnam, and they are still serving our community.
    So thank you, God bless you, and again, Mr. Chairman, think 
about my proposal, because this was outstanding. We had a great 
one in San Diego as well.
    So thank you, God bless you.
    I also want to tell Ms. White that you are welcome to serve 
on my advisory council.
    You mentioned dental care; we are working on that.
    Ms. White. Good.
    Mr. Bilirakis. We are working on that, and the Chairman 
knows that I have a bill in Committee.
    So thank you, God bless you, thanks for the turnout, and we 
will continue to fight for our heroes.
    [Applause.]
    Mr. Levin. I will bring this hearing to a close.
    It is a great honor to be with you all.
    Gus is going to take me to what he says is a really good 
Greek restaurant.
    [Laughter.]
    Mr. Levin. So I am very anxious to do that.
    My grandfather was a World War II veteran. The resources 
that we have been able to bring for our veterans since the 
Greatest Generation, I think we have made a lot of positive 
progress. We are cutting down on the rate of homelessness. One 
homeless veteran is still one too many, and I am absolutely 
committed to getting that number down to effective zero, I hope 
better than that, functional zero in my district, in my part of 
the country.
    Just note, and I will say it again, this is one issue where 
it is in no way, shape, or form a partisan issue. We work 
across the aisle to get things done in support and in service 
of those who have given so much on behalf of our country, that 
have sacrificed for our freedom. We are truly grateful for your 
service and for all that you continue to do to be engaged with 
your fellow veterans. We will continue to work as hard as we 
can to get things done.
    All members are going to have 5 legislative days to revise 
and extend their remarks and to include additional materials.
    Again, thank you so much.
    Without objection, the Subcommittee stands adjourned.
    [Applause.]

    [Whereupon, at 12:06 p.m., the Subcommittee was adjourned.]




                            A P P E N D I X

                              ----------                              

                  Prepared Statement of Joe D. Battle
    Good Morning, Chairman Levin, Ranking Member Bilirakis, and 
distinguished Members of the Subcommittee. Thank you for the 
opportunity to testify today on the topic of Veteran homelessness, the 
challenges faced by homeless women Veterans, and the risk factors and 
unique challenges faced by all homeless Veterans with respect to 
nutrition, employment, and criminal justice.
    James A. Haley Veterans' Hospital (JAHVH) is committed to improving 
Veteran outcomes and providing Veterans access to comprehensive 
homeless programs, services, and resources. We also provide Veterans, 
including those who are at-risk of or experiencing homelessness, with a 
full spectrum of services designed to meet their unique needs. JAHVH is 
committed to ending homelessness among Veterans. Our focus is 
threefold:

    <bullet>  Conducting coordinated outreach to proactively seek out 
Veterans in need of assistance;
    <bullet>  Connecting homeless and at-risk Veterans with housing 
solutions, health care, community employment services, and other 
required supports; and
    <bullet>  Collaborating with Federal, state, and local agencies; 
employers; housing providers; faith-based and community non-profit 
organizations; and others to expand employment and affordable housing 
options for Veterans exiting homelessness.

Introduction

    JAHVH is accredited by The Joint Commission and has 21 programs 
accredited by the Commission on Accreditation of Rehabilitation 
Facilities (CARF). JAHVH is in Tampa, Florida with Community-Based 
Outpatient Clinics (CBOC) located in Hernando, Hillsborough, Pasco, and 
Polk Counties, including the new South Hillsborough Outpatient Clinic 
that opened May 2019. Additionally, JAHVH will begin serving Veterans 
in Citrus County when it takes administrative control of the Lecanto 
CBOC beginning in October 2019. The number of Veterans in Tampa and 
surrounding counties is estimated to be over 230,000. The hospital is 
comprised of 499 operating beds, including medical and surgical 
inpatient, acute psychiatry, pain/rehabilitation units, and a community 
living center. JAHVH is also one of five Polytrauma Centers and when 
combined with our 100-bed Michael Bilirakis DVA Spinal Cord Injury 
Center, it is the largest Federal rehabilitation center. In Fiscal Year 
(FY) 2018, JAHVH treated 97,045 unique Veteran and Active Duty patients 
with 11,720 admissions and more than 1.4 million outpatient visits - of 
which about 129,000 were performed just down the road at the New Port 
Richey Outpatient Clinic.

Policy Issues Related to Veterans Homelessness (Risk Factors)

    According to the 2018 Point in Time (PIT) Count (the most recent 
publicly available data), Tampa and its surrounding counties reported a 
total of 2,376 homeless individuals, of which 411 (11 percent) identify 
as Veterans. Veteran status and character of discharge are not verified 
during the PIT. Of those who identify as Veterans, 174 were sheltered 
and 237 were unsheltered. The total number of homeless Veterans in the 
region decreased by 1 percent since the 2017 PIT count. Since 2011, the 
region's overall number of homeless Veterans has decreased by 72 
percent. This doesn't include Hernando County since PIT data is 
combined with Citrus, Hernando, Lake, and Sumter Counties for years 
except in 2019, which recorded 5 unsheltered and 2 sheltered Veterans 
in Hernando County.
    VA's Homeless Veteran programs comprise the largest integrated 
network of homeless treatment and assistance services in the Nation. As 
a component of this network, JAHVH strives to provide a continuum of 
service-from outreach to permanent housing-to our homeless Veteran 
population. JAHVH partners with local communities to offer a wide array 
of special programs and initiatives designed to help homeless Veterans 
live as self-sufficiently and independently as possible.
    Over the past 5 years, VA and its partners have made a concerted 
effort to collaborate at the Federal level to ensure strategic use of 
resources to end Veteran homelessness. Coordinated Entry Systems (CES) 
were developed to provide a systematic approach that is needed at the 
community level to ensure resources are being used effectively and 
Veterans in that community are offered the resources he or she needs to 
end their homelessness. The CES framework is designed to promote 
community-wide commitment to the goal of ending homelessness and 
efficiently using community-wide resources (including VA resources) for 
any Veteran experiencing homelessness.
    At the local level, we collaborate with Federal, state, and local 
agencies; employers; housing providers; faith-based and community 
nonprofits; and others to expand employment and affordable housing 
options for Veterans exiting homelessness. The JAHVH Health Care for 
Homeless Veterans (HCHV) program fully participates in the CESs 
throughout all our counties and will expand engagement to Citrus County 
in FY 2020.
    A priority of our HCHV is to break the cycle of homelessness using 
a variety of community resources, including permanent supportive 
housing programs; transitional housing programs; prevention and 
diversion programs; rapid-rehousing programs; substance use treatment 
programs; medical and mental health services; employment services; and/
or case management. Veteran sub-populations served range from those who 
are newly homeless and can self-resolve, to those who need temporary 
housing with short-term intensive services, to those who have severe 
mental health and/or substance use disorders and require ongoing 
supportive services to maintain permanent housing.
    Our HCHV manages a wide array of Homeless Veteran programs 
including those focused on the following:

    1. Conducting coordinated outreach to seek out Veterans in need of 
assistance. Including those focused on the following:

    <bullet>  JAHVH has outreach social workers who provide services at 
our VA clinics. The Outreach staff work alongside community partners, 
such as Supportive Services for Veteran Families (SSVF) program 
outreach teams. The outreach teams respond to calls from the National 
Call Center for Homeless Veterans and work directly with social workers 
from our hospital and CBOC locations.
    <bullet>  JAHVH has an extensive Veterans Justice Outreach (VJO) 
program. Staff provide outreach services in local jails to justice-
involved Veterans. A few of the jails have established pods to keep 
Veterans centrally located, which assists in more localized assessments 
and interventions. Individualized services are offered with an effort 
to assist in discharge planning to prevent homelessness upon release. 
VJO specialists staff Veterans Treatment Courts with an effort to 
support justice-involved Veterans engaged in treatment services.
    <bullet>  And JAHVH participates in community stand-down events 
such as the annual three-day Pasco County Annual Homeless Stand-Down 
and the City of Tampa's Operation Reveille.

    2. Another area of focus is connecting homeless and at-risk 
Veterans with housing solutions, health care, community employment 
services, and other required supports. JAHVH offers a variety of 
services to homeless Veterans and/or Veterans at risk for homelessness. 
These programs include the following:

    <bullet>  Department of Housing and Urban Development-VA Supportive 
Housing Program (HUD-VASH), offering permanent supportive housing; 
Grant and Per Diem (GPD), offering transitional housing and program 
services; Contracted Residential Services Programs (CRS), offering 
specialty transitional housing and program services such as 
Recuperative Care and Safe Haven; Outreach, providing street-based and 
clinic-based outreach services, as well as responding to the National 
Homeless Call Center; Homeless - Patient Aligned Care Team, offering 
primary care services to homeless Veterans; and VJO and Veterans 
Treatment Court programs. We collaborate with adjunct programs, such as 
SSVF to ensure Veteran accessibility to prevention, rapid resolution, 
and rapid rehousing programs.
    <bullet>  JAHVH also participates in the S.A.V.E. (signs, ask, 
validate, encourage, and expedite) program, a partnership between our 
HCHV and Suicide Prevention Program. Homeless program staff will 
provide suicide prevention training to community partners about this 
vulnerable population.
    <bullet>  We have a Homeless Veterans Community Employment Services 
(HVCES) program that connects Veterans to local employers and assists 
Veterans through individual and group services to access competitive 
employment opportunities. HCHV staff refer Veterans to VA's Therapeutic 
Supported Employment Services Program and Vocational Rehabilitation and 
Employment programs. Staff also link Veterans to the Homeless Veterans 
Reintegration Programs, a Department of Labor-funded program offered by 
local grantees.

    3. In addition, JAHVH HCHV has actively participated in past local 
community initiatives such as the 25 Cities Initiative. These community 
partners have been strong partners in our efforts and we appreciate 
their contributions to our Veterans' health and welfare. JAHVH has 
worked with our community partners for more than 30 years. Ending 
Veteran homelessness depends heavily upon collaborative, joint efforts 
from community agencies and local governments. Some of our local 
partners include the following:

    <bullet>  Permanent supportive housing: JAHVH HCHV program 
collaborates with Hernando, Hillsborough, Pasco, and Polk Housing 
Authorities, HUD, and Project-Based housing organizations contracted to 
offer HUD-VASH units, such as Steps Forward and Volunteers of America.
    <bullet>  Permanent housing programs: JAHVH HCHV collaborates with 
Tampa Hillsborough Homeless Initiative, and local SSVF programs, 
including, St. Vincent DePaul and Tampa Crossroads.
    <bullet>  Transitional Housing programs: JAHVH HCHV collaborates 
with Agency for Community Treatment Services (ACTS), Steps to Recovery, 
Tampa Crossroads (Athena House), and Volunteers of America.
    <bullet>  CRS Programs: JAHVH HCHV collaborates with Circle of 
Veterans, New Beginnings, Salvation Army and Steps to Recovery.
    <bullet>  VJO: JAHVH HCHV collaborates with County Sheriff 
Departments, County Jails, Circuit Courts (each County has a Veterans 
Treatment Court), State Attorney, and Public Defenders.
    <bullet>  Outreach: JAHVH HCHV collaborates with Homeless Community 
of Care (CoC), Tampa Crossroads, Saint Vincent DePaul, local Police 
Departments, Salvation Army, New Beginnings, Steps To Recovery, and 
Circle of Veterans.
    <bullet>  Stand Down: JAHVH collaborates with local County Homeless 
CoC's for Stand Down events.
    <bullet>  Operation Reveille: JAHVH collaborates with Tampa 
Hillsborough Homeless Initiative for Operation Reveille events.
    <bullet>  Coordinated Entry System: JAHVH HCHV collaborates with 
the local Continuum of Care Councils and is an active member of these 
councils.
    <bullet>  Other non-profit organizations providing goods and 
services: JAHVH HCHV collaborates with the Knights of Columbus, AmVets, 
Feeding Tampa Bay, and American Legion.

    These community partners have been strong partners in our efforts, 
and we appreciate their contributions to our Veterans' health and 
welfare.

Homeless Women Veterans

    The women Veteran population is growing. In FY 2018, JAHVH saw a 19 
percent increase in women Veteran patients from the previous 2 years. 
JAHVH offers services to women Veterans in the Tampa Crossroads (Athena 
House) GPD program. The local emergency shelter offers emergency 
shelter beds to women Veterans. JAHVH staff have established 
relationships with the shelter program staff and are able to assist 
with referrals for women Veterans when beds are available. Our HCHV 
collaborates closely with the Women Veterans Program at JAHVH, which 
offers resources to women Veterans, and connects them to specialty care 
for medical and mental health services.
    VA has made significant progress serving women Veterans in recent 
years, but homelessness among women Veterans remains an important 
concern and focus. Women Veterans can face many challenges when 
returning to civilian life, including raising children on their own and 
dealing with the psychological after effects of events such as military 
sexual trauma, employment, and housing barriers. Local Communities 
across the Nation are continuing to align resources to address these 
unique challenges. The following VA Women's Health services programs 
are engaged to support a systematic and coordinated approach to care:

    <bullet>  Women Veteran Program Managers (WVPM) are located at 
every VA Medical Center (VAMC). WVPMs help coordinate all the services 
that women Veterans may need. Services include primary care, pregnancy 
care, psychiatric care and sexual trauma counseling, inpatient medical/
surgical care, programs for homeless women Veterans, and quality of 
care issues.
    <bullet>  Military Sexual Trauma (MST) is the term used by VA to 
refer to sexual assault or repeated, threatening sexual harassment 
experienced during military service. Homeless women Veterans who use VA 
health care have higher rates of experiencing MST compared to all women 
Veterans who use VA health care. MST-related health care for physical 
and mental health conditions is available free of charge at every VA 
facility for eligible persons. There are MST Coordinators at every VAMC 
who can connect Veterans who have experienced MST to VA health care 
programs and services.

Mental Illness

    Secretary Wilkie recognizes Veterans who are homeless are a high-
risk population for suicide and has made suicide prevention one of his 
top priorities.
    VA's National Center on Homelessness among Veterans published 
research in 2018 (https://www.va.gov/HOMELESS/nchav/research/HERS6--
Suicide.asp) that found homelessness is associated with an increased 
rate of all-cause mortality and of suicide in Veterans. A study by John 
McCarthy highlighted at the VA Homeless Evidence and Research Synthesis 
Roundtable Proceedings in 2018 found that the suicide rate among 
Veterans with homelessness in the past year was 81.0 per 100,000 as 
compared to Veterans without recent history of homelessness with a rate 
of 35.8 suicides per 100,000.
    Because suicide prevention is one of the Secretary's top 
priorities, VA Homeless Programs are required to collaborate with 
Suicide Prevention programs using the S.A.V.E. program to cross-train 
homeless program staff on suicide prevention programs and to enable 
homeless program staff to train community providers and first 
responders on suicide and suicide prevention. Additionally, regular 
meetings occur to review high-risk Veterans to discuss and develop 
appropriate treatment plans to address risk factors. JAHVH has staff 
that meet with the Suicide Prevention Coordinator monthly. Staff 
involved in this effort are working towards providing formal training 
to local GPD and Contract Bed Providers as well as other Veteran 
community partners and first responders.

Affordable Housing

    VA continues to promote the establishment of affordable and 
permanent supportive housing and works with all partners to encourage 
efforts aimed at financing and developing additional housing stock to 
address the market factors. JAHVH's Homeless Program is working with 
local housing authorities to open project-based housing units for the 
HUD-VASH program. The first project came online in 2015, with an 
additional project in 2016. JAHVH's Homeless Program is currently 
working with Housing Authorities in Pasco and Hillsborough Counties for 
two additional housing projects.

Criminal Justice History

    Studies of Veterans receiving VA homeless services have shown that 
65 percent have a history of incarceration in prison or jail. Criminal 
justice histories create barriers-in addition to those noted above-to 
permanent housing, employment, education, and other resources, further 
limiting VA's ability to help homeless Veterans access these resources. 
This limitation is particularly acute for Veterans with histories of 
sexual offenses, for whom barriers to critical resources imposed by 
Federal, state, and local authorities pervade most areas of life. VA 
serves Veterans with criminal justice histories in its own programs 
(e.g., HUD-VASH) and facilitates Veterans' access to legal services, 
which may offer opportunities for record expungement; however, access 
barriers for those with criminal justice histories continue to limit 
the ability of many Veterans to take advantage of non-VA resources.

Employment

    The lack of employment opportunities and services that mitigate 
barriers to employment will adversely impact housing stability and 
community integration for formerly homeless Veterans. Without enough 
income, transitioning homeless Veterans will not be able to exit 
homelessness into permanent housing successfully. As mentioned above, 
VA's HVCES staff work closely with community partners and VA Medical 
Facilities to ensure that a range of employment services are accessible 
to Veterans who have experienced homelessness.
    VA continues to support Vocational Development Specialists who are 
embedded in homeless program teams and serve as Employment Specialists 
and Community Employment Coordinators. In addition, HVCES program staff 
ensure that Veterans who have experienced homelessness, including 
chronically homeless Veterans, have access to a range of employment 
services that complement existing medical center-based employment 
services and are a bridge to employment opportunities and resources in 
the local community.

    <bullet>  In April 2018, the HVCES program set a national goal of 
reaching 10,000 unique instances of employment (each episode of 
employment gained by a Veteran) between April 1, 2018, and March 31, 
2019.
    <bullet>  As of April 1, 2019, there were over 21,000 unique 
instances of employment, more than double the employment goal for 
Veterans engaged in or who exited from VHA Homeless programs or 
Services.

Data Sharing

    Due to the transient nature of this population, a loss of access to 
Veteran health care information may also lead to inaccurate master by-
name lists of Veterans experiencing homelessness in local communities 
and local resource planning as a result. Improving data sharing 
processes between VA and communities will ensure that Veterans 
experiencing homelessness have access to available services and 
resources. The risk of not improving data sharing processes will impact 
community's ability to successfully assess needs of homeless Veterans 
and match services to meet those needs.

Reducing Veteran Homelessness

    Reducing the number of Veterans who become homeless continues to be 
a vital step towards VA's goal of ending homelessness among Veterans. 
VA is working to improve predictive strategies and deploying evidence-
based practices designed to identify and prevent homelessness. VA has 
begun a national rollout of the Rapid Resolution Initiative which 
expands on a pilot program begun in FY 2018 to reunify Veterans with 
family members or friends as an alternative to shelter entry. SSVF is 
supporting mediation training by conducting free train-the-trainer 
programs for grantees around the country supported by an SSVF technical 
assistance grant. The train-the-trainer approach literally trains 
grantee staff to become trainers, so they can educate other staff in 
their agency and the broader community on these mediation techniques. 
VA Community Entry Specialists have also been invited to these 
trainings so VAMC staff are able to join this collaborative effort. In 
addition, SSVF has provided grantees with additional funding so they 
can support education for their staff on these techniques. Using 
mediation training and modest financial incentives through the SSVF 
program, VA is working with HUD, the U.S. Interagency Council on 
Homelessness, and other Federal agencies to create policies and train 
community-based staff to support implementation of this model. VASDHS 
SSVF providers have been working with VASDHS HCHV to implement the 
Rapid Resolution program locally in FY 2020.

Unique Challenges

Nutrition, the Criminal Justice System, Health Care, and Employment

    Significant progress has been made in preventing and ending Veteran 
homelessness. The number of Veterans experiencing homelessness in the 
United States has declined by nearly half since 2010, as more than 
700,000 Veterans and their family members have been permanently housed 
or prevented from becoming homeless. Although significant progress has 
been made, homeless and at-risk Veterans are faced with many 
challenges. VA has taken the following actions to address these 
challenges.

Nutrition

    In 2018, VA partnered with Feeding America with a shared goal and 
commitment to Veterans who require immediate hunger assistance in 
support of ending Veteran food insecurity. Through this partnership, VA 
and Feeding America have worked together to support participating 
Feeding America network food banks and VA medical facilities, through 
the development of pop-up food pantries at 18 VAMCs. Through these 
pantries, more than 600,000 meals have been served to more than 30,000 
Veterans and their family members who were experiencing food 
insecurities or those at risk of experiencing food insecurity. This 
partnership is growing as more VAMCs set up pantries through this 
partnership.

Veterans Justice Outreach

    VA serves justice-involved Veterans through two dedicated national 
programs, both prevention-oriented components of VA's Homeless 
programs: Health Care for Reentry Veterans (HCRV) and VJO. Known 
collectively as the Veterans Justice Programs, HCRV and VJO facilitate 
access to needed VA health care and other services for Veterans at all 
stages of the criminal justice process, from initial contact with law 
enforcement through community reentry following incarceration.
    Part of the continuum of services offered by JAHVH is the VJO 
program. This program provides resources, referrals, and case 
management services by VJO Specialists to Veterans with a variety of 
justice-involved needs, ranging from those participating in Treatment 
Court to those who are incarcerated, those that may be on probation/
parole, and for those in need of homeless court advocacy.
    Each year, we participate in two Veteran outreach courts. One in 
conjunction with the Pasco County stand-down and one we co-host with 
the Hillsborough County 13th Judicial Court at our Primary Care Annex. 
Outstanding legal issues can be addressed such as active misdemeanor 
warrants, fines, legal fees, court costs, and ordinance violations. In 
addition, we hold Legal Clinics for Veterans monthly to cover Family 
Law, Landlord/Tenant, Bankruptcy, Expungement, and Civil Matters. JAHVH 
VJO Specialists are assigned to provide case management services to 
Veterans involved in the following VTCs: Hernando County (5th Judicial 
Circuit), Hillsborough (13th), Pasco (6th), and Polk (10th).
    The VJO program works closely with local police and Sherriff 
departments. Many Veterans are linked by the VJO Specialists to VA-
funded GPD programs, SSVF, and HUD-VASH programs, as well as JAHVH 
alcohol and drug treatment programs as part of their probation/parole. 
A VJO Specialist provides case management services to ensure greater 
success and to help reduce recidivism. The VJO program works closely 
with sheriff departments in local county detention center to offer 
information, resources, and participates in discharge planning for 
incarcerated Veterans to ensure that Veterans are linked to programs to 
address issues related to housing, substance use, medical care, mental 
health, and employment programs prior to their release. Hillsborough 
and Pasco County Detention Centers have allocated resources for the 
creation of Veteran pods that help streamline Veteran services to 
incarcerated Veterans.
    The Veteran's participation in these programs and other VA 
treatment is often a part of a Veteran's case plan and probation 
expectations. VJO case management services assist the Veteran in 
navigating the Court's expectations and gaining access to treatment. 
This has helped ensure that more Veterans successfully complete the VTC 
programs in each county.

Expanding Access

    H.R. 2398 would amend the United States Housing Act of 1937 and 
title 38, United States Code (U.S.C.), to include those who are 
ineligible for other VA Homeless programs authorized by 38 U.S.C. 2011, 
2012, 2013, 2044, and 2061. As VA expressed in a letter to the 
Subcommittee on May 31, 2019, VA supports the expansion of eligibility 
in section 1(b) of the bill, although we note that the amendments made 
by section 1(a) of the bill are unnecessary because there is no 
eligibility issue on the HUD authorization side. This legislation is 
designed to match HUD-VASH eligibility criteria to that of the GPD and 
SSVF programs. Although VA supports this proposed legislation as it 
will allow additional vulnerable chronically homeless Veterans to 
receive much-needed HUD-VASH vouchers and case management, we note that 
in expanding eligibility, VA and HUD will need to coordinate to ensure 
responsible program implementation in order to maintain continued 
quality of care and success of the HUD-VASH program.
    VA also supports H.R. 716 if amended, as the bill is similar to a 
legislative proposal in VA's FY 2020 budget request. VA testified on 
this bill at a July 19, 2019, Subcommittee hearing.

Conclusion

    Across VA and locally at JAHVH, we are committed to providing the 
high-quality care our Veterans have earned and deserve. We continue to 
improve access and services to meet the needs of Veterans. We support 
all efforts to increase Homeless Veteran HUD-VASH prioritization 
eligibility. We appreciate the opportunity to appear before you today 
and the resources Congress provides VA to care for Veterans.
    Testimony of Executive Director of the Florida Department of 
Veterans' Affairs

                                 <F-dash>
       Prepared Statement of Captain Daniel W. ``Danny'' Burgess
    Thank you for the opportunity to present this testimony before the 
Committee on Veterans' Affairs Subcommittee on Economic Opportunity as 
we seek to address ways to provide the assistance Florida veterans have 
earned and deserve for their service to this nation.
    As the newly appointed Executive Director of the Florida Department 
of Veterans' Affairs, I felt the need to look and find ways we as a 
state could address gaps in veteran services and work together to solve 
some of the most crucial and time sensitive issues that face veterans 
today. The mission began on March, 29, 2019 and continues today. The 
information I present to you below is the combination of knowledge from 
leadership on the state, federal, city and county level as well as 
civic groups, veteran service organizations and charities across the 
state who have worked together over the past 5 months to address many 
important topics including the veteran homelessness crisis.
    Before jumping into specifics, I want to refresh everyone on the 
fact that the federal government utilizes the term functional zero when 
addressing homelessness matters - this term meaning that for veterans 
who want to come in off the street, there are ample resources to affect 
them doing so. To that end some good news. While Florida has a long way 
to go, as of August 5, 2019, Florida has five counties, and three 
communities that have declared functional zero for homelessness 
(Flagler County, Miami-Dade County, Fort Myers/Lee, Punta Gorda, 
Charlotte County, Volusia County/Daytona Beach).
    Homelessness among veterans in Florida has been effectively cut in 
half since 2011. A significant cause for Florida's substantial decrease 
in the rate of homelessness among veterans are national initiatives to 
end veteran homelessness. In Florida, millions of dollars have been 
invested through VA Supportive Services for Veteran Families grants, as 
well as HUD VA Supportive Housing (VASH) vouchers that provide long-
term rental assistance to help homeless veterans with high needs obtain 
and sustain permanent housing. Florida's Council on Homelessness's 2019 
report conveys:
    The annual Point-In-Time (PIT) Count, completed over a 24-hour 
period in January 2019, offers a snapshot of homelessness in Florida 
and nationally (available in Appendix III, Tables 1-7). Within the last 
year, the number of people experiencing homelessness in Florida 
decreased by almost four percent since last year's count and by 20 
percent since 2015. The number of people experiencing homelessness 
identified in 2019's count totaled 28,591; amounting to a reduction of 
1,126 people since last year's PIT Count. This decrease tells us that 
the implementation of best practices and targeted housing interventions 
paired with services are effectively creating successful outcomes in 
the fight to end homelessness in local communities throughout Florida.
    Importantly, while we recognize that homelessness among veterans in 
Florida is decreasing, we know we can do more. We hope to work with you 
all to find ways to join Connecticut, Virginia and Delaware and be the 
next state to join the list of states who have ended veteran 
homelessness across all counties.
    So now, let me go back to my earlier point in my remarks and 
discuss what the Florida Department of Veterans Affairs discovered 
regarding homelessness across the state during our Forward March 
initiative:
    The Florida Department of Veterans Affairs (FDVA) chaired an 
initiative called ``FORWARD March.'' The FDVA core team hosted forums 
in key cities across seven regions of Florida, namely: Tampa, 
Pensacola, Jacksonville, Lake Worth/West Palm Beach, Ocala, Miami, Cape 
Canaveral and Sarasota. Leadership from State, Federal, City and County 
municipalities, civic and church groups, veteran service organizations 
and charities operating within these regions participated in workgroups 
within their area of expertise, one of which was Veteran Homelessness 
and Community Services.
    The Veteran Homelessness and Community Services workgroup focused 
on the challenges, impacts/gaps, best practices and initiatives, and 
resources necessary to bring about change to existing conditions. Each 
subtopic began with a premise statement, and in discussing the 
challenges across the regions, found quite a few similarities in 
resolution approaches, programs and processes initiatives instituted, 
best practices, and resources need to bring about resolution. In each 
area visited, there was no doubt as the passion and compassion these 
entities embraced when it comes to assisting Veterans and their family 
members.
    The result of our discussions across the state is that Florida has 
a host of fragmented veteran services that augment the Federal VA 
benefits system. That patchwork is local focused, community oriented 
and effective for its regional population, but often work in silos, 
separate, distinct, and limited in their focus. Because they are local 
and inward focused, these groups face issues of adequate funding, lack 
of proper information dissemination and sharing, lodging and 
subsistence, and inadequate resources for outreach. They are also 
insular and thus miss out on the benefits of coordination, mutual 
assistance and resource sharing. Devoting resources to help fill these 
gaps will allow FDVA, city and county municipalities, agencies, civic 
organizations to be more effective. It takes a collective and combined 
community based effort to resolve these issues.
                         Veteran Homelessness:
    A Florida centric point in time study conducted by the Department 
of Housing and Urban Development (HUD) on Homelessness in January 2018 
and the 2019 Council on Homelessness study showed that an estimated 
that 31,030 experienced homelessness on any given day. Of that total, 
2,757 were family households, 2,543 were Veterans. This data does not 
take into account veterans and their family members who are being 
temporarily sheltered on someone's couch, commonly referred to as 
``couch surfing.'' Important is that veterans and their families are 
rolled up in these dire statistics.
    These statistics point to a very telling problem statement: Florida 
has not ended homelessness for Veterans and their families. Tied 
closely to the issue of Veteran Homelessness is the receipt of 
community services whether on an emergency or routine basis. This 
suggests another problem statement, that being: Veteran centric 
community resources are disparately apportioned and distributed across 
the public and private sector. Ultimately, this subsection of the white 
paper will not resolve veteran homelessness or community services 
matters, but will illustrate the regional challenges inherent to 
transitioning veterans, the gaps/barrier in service(s) provision, the 
initiatives and best practices being utilized within the various 
regions, and the resources necessary to bring about resolution. 
Importantly, it will position community collaboration and communication 
as the best tool to bring about positive change to current community 
challenges in these areas.
    Veteran homelessness was a challenging and emotional topic for all 
involved. While all agreed that this was a prevalent and growing 
problem across Florida, the degree of impact varied, as well as their 
belief that they could resolve the problem with available resources and 
within a certain amount of time. Also, that services were extremely 
limited, and disparate based on gender, family structure (single 
parent, previously incarcerated veteran with family members, and female 
veteran with children), characterization of service (honorable, general 
discharge, other than honorable, and dishonorable discharge). 
Importantly, they all believed that resolution lied in (less 
restrictive) funding, standardization of the definition of a veteran, 
and collaborating, communication and actually sharing resources to meet 
all veterans need.
             Challenges to ending homelessness in Florida:
    How to resolve homelessness appears to be a matter of defining or 
characterizing homelessness among our Veterans and providing services 
irrespective of the veteran's type of discharge (honorable, other than 
honorable, under honorable conditions, or bad conduct discharge).
    In addition, in defining homeless status, many veterans seeking 
services are not homeless by the definition of homeless - as they are 
``couch surfing'' or temporarily sheltering on someone's couch. Also, 
most homeless programs have no provisions to support single veterans 
with children, especially female veterans, and those who have run afoul 
of the law. Conversely, those who are eligible for housing find that 
there is little to no safe affordable housing available for their 
particular situation. When it came to landlords, those whose property 
may have been damaged in some way, refused to rent to Veterans as there 
was no funding mechanism to mitigate the damage. In gathering data 
across the seven regions, we found key issues to be:

    <bullet>  A shortage or lack of financial resources and 
availability of `safe' affordable housing, including but not limited 
to:
    <bullet>  Subsidies/Vouchers to supplement or offset the high cost 
of housing coupled with long term landlord engagement to maintain 
housing
    <bullet>  Address the shortage of participating landlords; and 
restrictive housing, as well as the lack of housing and/or funding to 
create affordable housing
    <bullet>  Limited shelter/lodging for female Veterans with 
children; as well as single male Veterans with children
    <bullet>  No transitional programs for incarcerated veterans to 
assist them in getting reestablished in society.
    <bullet>  Housing and Urban Development-Veterans Administrations 
Supportive Housing (HUD--VASH) voucher programs amounts are stagnant/
decreasing - - don't keep pace with the fluctuating prices of housing
    <bullet>  Lack of financial resources for move-in costs (i.e. 1st, 
month, last month and security deposit(s), as well as utility deposits 
- - items not covered by the HUD-VASH vouchers
    <bullet>  No statewide resources for veterans transitioning from 
services to civilian life
    <bullet>  Lack of agreement among providers on the use of available 
funds
    <bullet>  Lack of city participation in community service and 
outreach programs
    <bullet>  Limited supportive services are available in most cities, 
counties and communities and those supportive service work in their own 
silos and leading to unnecessary duplication of efforts; reduced 
opportunities for education/sharing of information among service 
providers. Agencies and service organizations providing these services 
must move away from a - my program - approach to my community program 
approach.
    <bullet>  The definition of Homelessness differs at each level of 
government (federal, State, county, and city which significantly 
impacts resource allocation. All programs would benefit tremendously 
from a clearly defined end- state for homelessness.
    <bullet>  Lack of supportive benefits and conversely a lack of 
awareness and communication of available resources. This shortage of 
supportive benefits fall into the following areas:
    <bullet>  Lack of access to mental health care for veterans in 
conjunction with administering other supportive services.
    <bullet>  There is a competition among organizations for veterans 
as programs are productivity or quota driven; also creates a lack of 
transparency regarding services available and provided.
    <bullet>  Lack of employment assistance for homeless veterans
    <bullet>  No centralized resource or process to direct veterans to 
appropriate assistance and no follow-up process for those who are 
provided assistance (Veterans seen as a piece of paper vice solving 
human issues)
    <bullet>  Limited financial resources for crisis or preventive 
services
    <bullet>  Public Awareness and communications issue (root causes 
must be determined as each area is different (employment, drugs, mental 
health)
    <bullet>  All regions echoed a concern regarding a comparable 
living wage to support housing and subsistence. After subsistence 
vouchers ran out, previously homeless veterans could not find 
employment that kept pace with housing costs.
    <bullet>  Lack of unified effort to identify veterans. (Census 
count may possibly identify vets)
    <bullet>  There are associated mental health issues underlying 
veteran homelessness. Some veterans don't want to leave the confines of 
the woods. Mental health services are limited and sporadic across 
Florida.
    <bullet>  Misinformation and guidance regarding available resources 
- perhaps consider revamping Transition Assistance Programs (TAPS) and 
similar programs to extend transition assistance for Active duty 
military personnel to 60, 90+ days post service.

    Last, finding those veterans will also be difficult as they are 
transient by nature and a good bit of those refuse, for various 
reasons, not to come out of the woods.
        Gaps/barriers impacting the eradication of Homelessness:
    Across the regions assessed, gaps and barriers affecting 
homelessness followed closely the challenges mentioned above, 
especially when it came to resources and services provided. So, as not 
to mention them again, this section will focus on or expound of those 
mentioned above. Repetitively, income played a key factor in services 
and creating a gap in the amount of services available. For example, 
Area Medium Income (AMI) does not equal to the Cost of Living Allowance 
(COLA). These thresholds disqualified a good segment of Veterans from 
receiving services that could have alleviated a homeless situation. 
From a legislative and municipal perspective, there were no policies to 
mandate a percentage of housing to be dedicated to homelessness 
initiatives. Gap/barriers repetitively mentioned or listed above 
included:

    <bullet>  Lack of landlords and `safe' affordable housing including 
no damage mitigation support for landlords. Also, there was a lack of 
education on housing. Key concerns included:
    <bullet>  A lack of affordable housing outside of VA restrictive 
requirements Housing and Urban Development-Veterans Administrations 
Supportive Housing (HUD--VASH)
    <bullet>  Housing choice voucher or similar programs were 
nonexistent - - rental help only.
    <bullet>  Lack of landlords willing to accept HUD-VASH vouchers, 
termed landlord burnout. This landlord burnout stems from housing being 
trashed or otherwise abused without any recourse
    <bullet>  Existing housing is typically service animal restrictive. 
This restriction is applied informally but not officially. 
Consequently, veteran won't give up service or support animal; and 
there are also challenges connecting vet with pet services.
    <bullet>  Lack of legal services and social services for veterans
    <bullet>  Discharge upgrades (dishonorable discharge, bad conduct 
discharge) for Veterans ineligible for Veterans Administration services
    <bullet>  Lack of employment assistance, peer support, and case 
management
    <bullet>  ``Stovepipe'' programs (Community Vs. my organization)
    <bullet>  Transportation shortages: lack of dedicated 
transportation services to and from appointment areas
    <bullet>  VA systems & community system don't interface (HOMES/
Homeless Management Information System). There is consequently a 
disconnect between private and VA doctors on claims (claims exams, 
data, and the like).
    <bullet>  Mental health services /providers differ by location and 
are not connected. More specifically there is a disparity between 
homeless and near homeless services. Needed are:

    <bullet>  Separate program for spouse and family members
    <bullet>  Preventive assistance for those who don't meet income 
requirements
    <bullet>  Automation driven services by the VA and access limited 
by veterans individual resources (phone, computer)
    <bullet>  Lack of communication to discharged veterans on benefits 
and services. A solution might be an information or exit package
    <bullet>  There is currently no centralized process to gather data 
and evaluate for services/``follow-up'' (clearing house)
    <bullet>  Analyze data to determine root cause (Mental health; 
transportation; education; or physical health
    <bullet>  Specialized services needed - current programs cater to a 
particular group while others fall through the gaps.
    <bullet>  211 Initiative not promoted well
    <bullet>  Resources provided by 211 may not be available
    <bullet>  Trainer/mentor/counselor is needed in each prison 
facility to get Veterans needed help
    <bullet>  Provides for early assessment
    <bullet>  Community Forum for vets issues that meets periodically 
with due outs by subsequent meetings. Key to success of this venture is 
frequent meetings with proactive measures for veterans before 
incarceration/before imbedding them into the community
    <bullet>  Guardianship Program with resources to service needy 
veterans and family members
    <bullet>  Guardian Ad Litem/Peer to peer level services
    <bullet>  Help vets manage their compensation and pension
    <bullet>  Also, assist with doctor management issues
    <bullet>  State of Florida lacks a Welcome Packet for departing 
military - Florida-centric packet.

Initiatives Agencies or Organizations currently working on:

    Initiatives varied across the regions as some services did not 
exist in all areas. Also, initiatives were at different stages of 
development, so a clear assessment of their productivity was not 
available. Important is that most initiatives were grass roots with 
limited provision for expansion across counties or the State for that 
matter.

    <bullet>  Veteran Integrated Services Network 8 (VISN8): Supportive 
Services for Veterans and Families; HUD-VASH, and MyFloridaVet line 
funded by VISN8
    <bullet>  Florida 211
    <bullet>  Mission United
    <bullet>  Florida Veterans Foundation; Floridaveterans.org
    <bullet>  Continuum of Care (CoC) Initiatives (Share Information); 
moving from CoC to my State
    <bullet>  Stand Downs Reboot
    <bullet>  Sharing transportation resources - communication
    <bullet>  Homeless Outreach T3AM
    <bullet>  Community collaboration
    <bullet>  Homeless Management Information System -open system
    <bullet>  Coordinated intake of Veterans.
    <bullet>  Housing First model
    <bullet>  Residential based certifications
    <bullet>  By Name List/Case conferences
    <bullet>  Her Total Wellness Initiative
    <bullet>  Standdowns - organizations collaborating formally and 
informally (network); Mini stand-downs
    <bullet>  100 vets off the street in 111 days initiative (joint VA/
Palm Beach County/HUD/Standdown House collaborative initiative)
    <bullet>  VA socialworkers (referrals)
    <bullet>  VA Domiciliary Project Initiative at VA Hospital
    <bullet>  Adult Health Day Care
    <bullet>  Coordinated entry/by name list (VA and community 
initiative)
    <bullet>  Build for Zero: ``Community Solutions'' partner with 
community partners) assessing best practices for homeless community 
members
    <bullet>  Goal is functional zero by year end
    <bullet>  Point in time count of homeless Veterans and families
    <bullet>  Shared Housing - - two or more vets sharing housing
    <bullet>  Community coalitions forming to provide funding for 
emergency services
    <bullet>  Food Banks
    <bullet>  VA Expanded case management programs
    <bullet>  Survey of veteran's needs - survey/study
    <bullet>  Mental health needs
    <bullet>  Housing needs
    <bullet>  County Veteran Services Officers - roving veterans 
seminar
    <bullet>  Sarasota Jail - Veterans pod created at facility - - 
keeps veterans together while incarcerated, while providing a 
transition program
    <bullet>  Gulf Coast Partnership - ``Continuum of Care''
    <bullet>  Collaboration - Sarasota & Manatee County on veterans, 
their families and related issues.
    <bullet>  Punta Gorda Police Department - trained in veteran 
intervention
    <bullet>  Homelessness Outreach Teams - trained in veteran 
interventions

                Resources necessary to bring resolution:

    Repetitive across all counties was the lack of sufficient financial 
support to support or enhance existing programs, or to develop new 
programs or initiatives, especially housing. Also, participants echoed 
that when financial resources were provided, they were so restrictive 
that their use was largely prohibitive or restricted to a small segment 
of the veteran population. Also, that the persons to manage the 
programs were underpaid and at the macro level, there was no dedicated 
personnel to coordinate State level support, and systems utilized by 
the different social service programs did not integrate. Critical also 
is being able to evaluate success given the resources provided.

    <bullet>  Safe, affordable housing and the creation of housing 
developments (affordable and near jobs); Affordable safe housing units 
and participating landlords; housing specialist to work with landlords 
and companies/organizations; landlord damage mitigation fund, and space 
allocated for housing (tiny housing)
    <bullet>  Develop a program of monetary incentives for initiatives 
reaching the programs goal for initiatives or other metrics based 
programs.
    <bullet>  Mandate a Statewide software system to manage 
homelessness data and matters (HMIS); HMIS/Homes integration, as well 
as a Statewide client and data management system
    <bullet>  Develop a State of Florida Level - dedicated think tank 
to look and develop solutions to Statewide problems/issues impacting 
our veterans
    <bullet>  Employ gender/specific counselors at agencies, 
departments, or organizations that have counseling as part of their 
veterans benefit programs.
    <bullet>  Expand mental health services: expand to include 
supporting medical and mental health services
    <bullet>  Offer communications mediums as part of Career 
development; Computer Training/educational resources for Veterans 
(phones, pagers, etc)
    <bullet>  Expand existing VA education on current programs to reach 
a more diverse audience, including family members.
    <bullet>  Mobility options (transportation and transport services 
close to Veterans lodging areas
    <bullet>  Funding
    <bullet>  Use vacant buildings for safe and secure housing
    <bullet>  State, city and county provide seed money for this 
initiative
    <bullet>  Use existing land set asides for affordable housing
    <bullet>  Solicit/use nonprofit resources - - tiny housing
    <bullet>  Definition of homelessness (Define so homeless can move 
from transitional housing to permanent housing)
    <bullet>  Sustainment resources - - use to assist while families 
develop income levels to sustain themselves
    <bullet>  Funding (grants and related subsistence funds)
    <bullet>  Coordinated database; Marketing of resources available; 
Consolidated database of services/resource index statewide
    <bullet>  Homelessness prevention programming - - one time funding, 
SSVF assistance
    <bullet>  Education and peer support - follow up and budgeting 
training
    <bullet>  Access to FEMA resources for Vets
    <bullet>  Manpower/personnel for sustainability (volunteers 
diminishing)
    <bullet>  Subsidies for aging, homeless, indigent veteran 
population - assisted living facilities for veterans that require 
supervised care
    <bullet>  Additional veteran service officers (VSOs) - perhaps 
place additional VSOs in existing VA clinics
    <bullet>  Policy changes (State & Federal) to allow or expand 
services to a larger group of Veterans
    <bullet>  Pamphlets for law enforcement/first responders to hand 
out to veterans with whom they interact
    <bullet>  Public awareness campaign (i.e. Public Service 
Announcements, billboards, etc.) that is led by veterans, subject 
matter experts, as well as ``boots-on-the-ground) community members
    <bullet>  Messaging to position VSOs as veteran advocates to 
facilitate greater interaction of veterans who are in need of services 
and supports
                               Conclusion
    Thank you for the opportunity to submit this testimony on behalf of 
the Florida Department of Veterans' Affairs for your records. We know 
this issue is a serious problem facing not only our state, but the 
country. We look forward to working with the committee and offer our 
assistance in trying to address the major challenges that face Florida 
veterans. We also appreciate any additional resources that can be 
provided to help address the veteran homelessness crisis.

                                 <F-dash>
                  Prepared Statement of David Lambert
Dear Sir,

    The Pasco County Housing Authority is the recipient of Federal 
Funds through the Department of Housing and Urban Development. We 
receive VASH Vouchers that are specifically for Veterans. Housing for 
Veterans and others is extremely hard to come by. The PCHA recently 
purchased property to build approximately 78 units of Veterans family 
housing and mental health housing. While one would think progress has 
not been made and there is an extreme lack of affordable housing stock 
in our area. In the case of the PCHA we tried to get financed before to 
build the new community however banks would not lend to the PCHA. Even 
though the VA and HUD approved project basing VASH vouchers which 
virtually guarantees the property would be successful.
    We have met resistance at every level. This is based on the low 
funding from HUD through the Federal Budget and our balance sheet. 
Housing Authorities are designed by nature to have a very slim margin. 
We have been able to cobble together approximately two million dollars 
in funding and we are seeking a legislative budget request for two 
million more and banks will approve funding and we can begin 
construction on a new community.
    We respectfully request the federal government create a regulation 
and a funding stream that gives enough capital to obtain financing from 
private banks or federally back loans specifically to build Veterans 
and mental health housing

    Respectfully,

    David B. Lambert
    Chairman
    Pasco County Housing Authority
    727-505-3179

                                 <F-dash>
                  Prepared Statement of Michael Raposa
    My name is Michael Raposa, and I am the CEO of St. Vincent de Paul 
CARES, Inc.
    Since 2011 we have been the lead agency leading the charge to end 
veteran homelessness in the West Central Florida area - including the 
counties of Pasco, Pinellas, Hillsborough and Polk. In 2018 we added 
the counties of Citrus, Hernando, Sumter and Lake to our service area.
    When we embarked on the mission, the mere concept of ending veteran 
homelessness for any sub-population was a dream that many felt 
unrealistic. To that end, I was summoned at one point to a local County 
administrator's office who requested that I stop talking about it 
publicly; stating that the commissioners thought that I was crazy.
    I understood where he was coming from - as the number of 
unsheltered/sheltered veterans was approximately 2,850 in that County. 
I am pleased to stay that the number is significantly less than 200 
today . 164 last time I looked. We have made significant progress - 
much thanks to substantial congressional appropriations over the years.
    The creating and continued funding of the Supportive Services for 
Veteran Families (SSVF) program under the Veterans Administration has 
completely transformed homeless services delivery nationwide. The data 
continues to show that the majority of veterans on the street can be 
moved into housing immediately and, with wrap-around supportive 
services, thrive. The length of time between being on the street and 
housing has declined from nearly 180 days when we began - to near 40 
days today.
    In addition to the positive impact that SSVF has had on the clients 
and households served - the greatest impact has been on the local 
communities. The program has proved that a systemic approach to ending 
homelessness across the US can/will produce a dramatic decline in 
homelessness. In the Tampa Bay region alone, we have seen the dramatic 
decline in communities (as illustrated above) - whereas other portions 
of our community where the system is less developed; the numbers remain 
stagnate - or continue to increase. The substantial foundation laid by 
SSVF is now able to be easily replicated with other subpopulations.
    To that end - during the month of August Pinellas County saw the 
number of homeless families with children seeking shelter and housing 
intervention at zero for four days. While this may seem meager - it is 
substantial considering the number has been over 200 at various points.
    So, the rapid access to affordable housing, supportive 
stabilization services, community organization and coordination, and 
strong advocacy for change have proven to be the perfect combination.
    The greatest obstacle being faced across the nation today is the 
availability of affordable housing. We, as a nation, need to adapt 
services to meet the changing conditions it has created. The first is 
the need to expand the affordable housing supply. VA's Enhanced Use 
Lease (EUL) program allows for the development of housing on 
underutilized or unused VA properties, but there are no capital funds 
associated with the program to develop targeted rental housing or 
permanent supportive housing. Allowing the EUL program to offer both 
capital resources as well as the ability to collaborate with the HUD-
VASH Program on Project-Based HUD-VASH, in a one-stop procurement, 
would eliminate the need for developers to seek out multiple sources of 
capital and operating assistance. This would also help integrate 
Project-Based HUD-VASH into all EUL development.
    Within HUD, there are cross-cutting HUD regulatory requirements 
(e.g., Davis Bacon or Environmental Review requirements) that are 
applied to programs and projects regardless that offer rental 
assistance or operating assistance (e.g. Section 811 Project Based 
Rental Assistance or Section 8 Project Based Vouchers) not capital 
sources that support housing development. HUD may want to consider 
conducting a review of the cross-cutting regulatory requirements to see 
if any of these requirements could be eliminated to reduce barriers/
burden on developers of multi-family rental housing or permanent 
supportive housing, as well as the time it takes for a project to come 
to fruition. Eliminating or reducing some of these requirements would 
both lower developer costs to comply and improve the efficiency of the 
development process (i.e. reduce time to develop an affordable multi-
family development). As a result, these reforms may increase housing 
developers, especially for-profit entities, participating in these HUD 
programs.
    Two promising practices being initiated by SSVF should be supported 
and expanded.

    <bullet>  Its Rapid Resolution seeks to identify available housing 
that veterans may access by moving in with family or friends. Through a 
process of conflict mediation and limited financial assistance, Rapid 
Resolution helps homeless and imminently at-risk veterans reconcile 
sufficiently so that these relationships can become housing resources. 
This avoids the trauma of homelessness for these households and creates 
a new untapped housing resource. SSVF has supported this national 
initiative by training grantees on mediation techniques and creating 
the programmatic framework to make this initiative possible.
    <bullet>  A second SSVF initiative is known as shallow subsidies. 
Shallow subsidies offer a fixed rental subsidy of up to 35 percent of 
the Fair Market Rent (as published by HUD) for 2 years. As the subsidy 
is fixed for 2 years, participants are strongly incentivized to 
increase income as their rental subsidy would not be impacted by income 
growth. SSVF has partnered with DOL's Homeless Veterans Reintegration 
Program (HVRP) to co-enroll participants with the goal of reach 
economic self-sufficiency by the end of SSVF's 2-year shallow subsidy 
period. Currently offered in 10 CoCs, we would like to see this 
resource expanded into other communities with inadequate supplies of 
affordable housing.

    Finally, we here in Florida continue to see the states affordable 
housing trust fund being swept by our state legislature. 2019 was the 
first time (in many years) that we saw the Governor and Senate on the 
same page to release a historic portion of fund. However, with House 
opposition - no great change happened. We desperately need more 
advocacy from Washington.

                                 <F-dash>
                  Prepared Statement of Brian Anderson
    Good Morning Chairman Levin, Ranking Member Bilirakis and members 
of the Committee,

    My name is Brian Anderson; I am a Medically Retired Green Beret, 
Social Worker, founder and CEO of the Veterans Alternative, and a 
Master's of Social Work candidate at Columbia University with a focus 
on Social Enterprise Administration. I truly appreciate the time given 
to speak on a problem I am all too familiar with.
    I moved to Pasco County Florida in 2012. At that time, Pasco and 
Hillsborough Counties ranked in the top ten of chronically homeless, 
and Hillsborough and Pinellas Counties each ranked in the top ten for 
overall homeless (Alvaro Cortes, 2012). All three counties were rated 
as small cities, counties or continuum of cares. Real change in our 
area is not significant, as the 2018 Point In Time Counts reveals Pasco 
and Pinellas counties leading in several homeless statistics including 
Veteran Homelessness (Meghan Henry, 2018).
    As valiant an effort as James A. Haley, Bay Pines, the state of 
Florida, local municipalities and Non-government organizations have 
made in the last 7 years, homelessness remains a major issue amongst 
our Veteran population. Models, such as housing first, have emerged as 
the leading evidenced based approach to ending homelessness, yet we 
lack the number of beds needed, and unfortunately we can not build and 
fund fast enough to keep up with the demand. This brings to focus how 
we catalog homelessness, health care or societal, and the approach in 
which we attack the issue.
    By necessity, our country is shifting the focus of health care from 
acute to preventative (Stanhope & Straussner, 2018). You, our elected 
officials, have played a major role in this shift, and it is evident in 
our Veteran Health Administration. For the most part, at least in the 
James A Haley area of operation, a whole health approach is practiced 
and is increasing overall health and wellbeing of the Veterans served, 
but our approach to homelessness is still acute, and that needs to 
change.
    The health care shift articulates good health care as an exercise 
in interdependency, yet our homeless programs focus on reactive 
solutions and little on the preventative practices often implemented in 
community wellness programs serving the psychosocial needs of a 
population (Brown, Besterman-Daban, Chavez, Njob, & Smith, 2016). 
Reactive solutions do little in addressing the root cause of the 
problem, which was a major topic in our Nation's discussion on health 
care practices (Stanhope & Straussner, 2018).
    Homelessness is not the root cause; rather it is a byproduct of 
several contributing factors, including mental health, medical and 
economic hardship (Madlen, Jepson, Laird, & McAteer, 2019). These are 
being addressed in standard practices of care, especially at the state 
and federal levels, but there is an element missing at the community 
level, and it is prudent we address this by allocating more resources 
to wellness programs addressing the psychosocial needs of our Veteran 
population.
    These wellness programs are critical in reaching our most isolated 
individuals who are often reluctant to engage services through normal 
means of care, such as the Veterans Health Administration (Madlen, 
Jepson, Laird, & McAteer, 2019). Community based Wellness programs are 
a crucial part of the solution to prevent homelessness, suicide and 
risky behaviors from occurring, yet are often pacified as ``feel good'' 
services. It is time we start including community-based nonprofits as a 
necessary part of overall Veteran Care and prevention programs.
    Many of these community-based nonprofits are providing services 
alternative in nature, and include camaraderie as a key component of 
programing. Numerous studies indicate the loss of ``fictive kinship'' 
and the disconnect between veterans and civilians as major problems we 
face (Wilson, Hill, & Kiernan, 2018). Social isolation is a significant 
concern among Veterans from all generations including our transitioning 
Veteran population, and is often associated with homelessness, suicide 
and suicidal Ideations, risky behaviors and use of drugs and alcohol. 
Veteran nonprofit organizations providing alternative care often 
utilize a model that includes peers in treatment in an environment 
outside the standard medical model and this phenomenon needs to be 
researched, resourced and replicated.
    As the medical model would dictate, focus on treatments rather than 
programs have emerged as the legislative test to see what these 
nonprofits bring to our interdependent practice. What started with the 
VA committee as the COVER Act, has been replicated in the State of 
Florida. An extensive program evaluation of Alternative treatment 
options for Veterans is being implemented right now, and 12 of the 15 
current participants represent community-based nonprofits. It is 
premature and under resourced to hypothesize results on a larger scale 
as it relates to homelessness, but our current standard of practice is 
doing little to address prevention and these community based veteran 
nonprofits providing wellness programs are structured to prevent 
isolation which is a documented cause and result of homelessness, along 
with suicidal ideations and risky behaviors.
    If we can accept societal issues are man made phenomena, then we 
have the opportunity to change through our constructed system of human 
interaction. We can end a systemic problem, like Veteran homelessness, 
through the very structures we created or place value on, such as 
legislation, resources and approaches. I beg you, for the health and 
wellbeing of my fictive brothers and sisters, include wellness programs 
as a major part of prevention in the legislation you present and in the 
resources you allocate.
                               References
    Alvaro Cortes, M. H. (2012). Annual Homeless Assessment Report. The 
U.S. Department of Housing and Urban Development, Office of Community 
Planning and Development. Alvaro Cortes, Meghan Henry, RJ de la Cruz, 
and Scott Brown, Abt Associates.
    Brown, C., Besterman-Daban, K., Chavez, M., Njob, E., & Smith, W. 
(2016). ``It gave me an excuse to get out into society again'': 
Decreasing Veteran Isolation through a Community Agricultural Peer 
Support Model. Journal of Veteran Studies (1), 164-186.
    Madlen, S., Jepson, R., Laird, Y., & McAteer, J. (2019). A Theroy 
based evaluation of an intervention to promote positive health 
behaviors and reduce social isolation in people experiecing 
homelessness. Journal of Social Distress and the Homeless , 28 (2), 
158-168.
    Meghan Henry, A. M. (2018). Annual Homeless Assessment Report 
(AHAR) to Congress. The U.S. Department of Housing and Urban 
Development.
    Stanhope, V., & Straussner, S. L. (2018). Social Work and 
Integrated Health Care. New York, NY, United States: Oxford University 
Press.
    Wilson, G., Hill, M., & Kiernan, M. D. (2018). Loneliness and 
social isolation of military Veterans: systematic narrative review. 
Occupational Medicine , 68, 600-609.

                                 <F-dash>
                    Prepared Statement of Mary White
    I am an Army Veteran; I am also a mother. I became a single mother 
when my son was one, I also found us to be in a financially burdened 
situation. At that point, we had become homeless. We couch surfed for a 
little while before I learned that the VA had programs to help us. I 
started advocating for myself and that's how I was connected to 
HUDVASH. Through that process, I was also able to find community 
organizations such as Saint Vincent DePaul's, Supported Services for 
Veterans and Families (SSVF), and Boley Centers Federal Employment 
Grant that offers assistance to homeless Veterans. Saint Vincent DePaul 
assisted us with finding suitable housing and also the financial 
aspects of securing and moving into my apartment. Once we had suitable 
housing HUDVASH was able to take over with a housing voucher and case 
management. Local non-profit organizations donated furniture, household 
goods and sometimes food; they even provided Christmas presents for my 
son. Due to having sustainable housing, I was able to go back to school 
utilizing G.I. Bill and Vocational Rehabilitation (Chapter 31) 
benefits. I performed my required Masters Practicum at the James A. 
Haley VA Medical Center as a social work intern. I graduated with my 
Masters in Social Work in August, 2018. While attending school and 
working, I received a voucher to defray childcare costs through the 
Early Learning Coalition (ELC), which is a very limited resource in the 
community that HUDVASH was able to refer me too. Without childcare 
assistance it would have been virtually impossible to succeed. Many 
single parents remain trapped ``in the system'' due to this barrier 
alone.
    During this time, in addition to mental and medical health care by 
the VA, I also worked with the VA's Compensated Work Therapy (CWT) 
program to try and find employment. I received assistance from Boley 
Centers, Homeless Veteran's Reintegration program, who assisted with my 
resume and job readiness. I continue to work with Vocational 
Rehabilitation employment services and CareerSource's Veteran 
Employment services to secure a job that will utilize my Master's 
degree. I am currently an Employment Security Representative, with the 
Department of Economic Opportunity.
    All these programs, for me began with HUDVASH. HUDVASH interlinks 
with a multitude of resources to assist homeless Veterans, connecting 
us to needed resources. One resource is the Pasco County Housing 
Authority. They enrolled me into the Family Self-Sufficiency (FSS) and 
Earned Income Disallowance (EID) programs, which allow me to continue 
to work towards financial security and independence. I am working with 
these resources to meet my last treatment plan goal of incoming out of 
HUDVASH and no longer being eligible.
    These programs and resources available to assist homeless Veterans 
are the reason I am where I am today. I am a single mother with a 
master's degree and working towards becoming a Licensed Clinical Social 
Worker. I am able to support my family, and maintain normal living 
environment for my son. I would not be successful without the 
assistance from these programs and organizations that help the homeless 
Veteran population.
    Even with these resources, barriers remain a very big reality for 
struggling Veterans. Transportation is a major barrier. Public 
transportation in Pasco county is minimal rendering it almost 
impossible to maintain employment or school attendance without a 
vehicle. The financial burden is overwhelming and impossible for the 
homeless. I was blessed to have a vehicle but the fear of repossession 
was a reality. When my car broke down, and I could not afford repairs, 
I could have easily been derailed. HUDVASH connected me with Wounded 
Warriors who paid for car repairs. If they hadn't, I would still be 
solely relying on these programs for financial security rather than 
trying to phase out of them. Without reliable transportation Veterans 
are trapped in the system. There are very few resources to help 
Veterans obtain or maintain transportation. In Pasco County, there are 
no shelters or transitional housing opportunities for women and 
children and very limited shelter beds for men. Without short term 
housing solutions many never have the opportunity to seek permanent 
housing and independence. Mental health and medical treatment are a 
real option once someone is stably housed in a program such as HUDVASH. 
However, for some, no dental resources have resulted in major medical 
concerns that derail progress towards independence.
    I entered into HUDVASH in 2016 and it has taken just under 4 years 
to get to where I am today. Although I am still a Veteran receiving 
services through HUDVASH, my aim is to not make it to the 5th year. 
Instead of being a homeless Veteran family, we are on the path of 
becoming homeowners with full time employment and being completely 
self-sufficient.
    The resources my son and I utilized are vital to one another, and 
were possible through various grants and programs that the VA helped me 
access. I have personally witnessed both sides of these programs. One 
as a client/recipient of the services, but also while completing my 
internships at the Tampa, VA. I was able to see the clinical and 
administrative side of some of these programs. It is my goal to put 
these experiences to good use and help other veteran's navigate my path 
and reach their goals as well. None of it would be possible without the 
funding Congress provides through federal grants, HUD and educational 
benefits. Additional funding is needed for emergency and transitional 
housing, transportation and ancillary services that will ultimately 
save money, as more veteran's become self-sufficient and productive 
members of their communities.

                                 <all>
</pre></body></html>
